<html>
<title> - THE U.N. HUMAN RIGHTS COUNCIL: SHORTCOMINGS AND PROSPECTS FOR REFORM</title>
<body><pre>[Senate Hearing 110-218]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-218
 
  THE U.N. HUMAN RIGHTS COUNCIL: SHORTCOMINGS AND PROSPECTS FOR REFORM

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON INTERNATIONAL OPERATIONS AND
               ORGANIZATIONS, DEMOCRACY AND HUMAN RIGHTS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 26, 2007

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                    U.S. GOVERNMENT PRINTING OFFICE
39-646                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire
BARACK OBAMA, Illinois               GEORGE V. VOINOVICH, Ohio
ROBERT MENENDEZ, New Jersey          LISA MURKOWSKI, Alaska
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   DAVID VITTER, Louisiana
                   Antony J. Blinken, Staff Director
            Kenneth A. Myers, Jr., Republican Staff Director

                                 ------                                

              SUBCOMMITTEE ON INTERNATIONAL OPERATIONS AND
               ORGANIZATIONS, DEMOCRACY AND HUMAN RIGHTS

                     BILL NELSON, Florida, Chairman

RUSSELL D. FEINGOLD, Wisconsin       DAVID VITTER, Louisiana
ROBERT MENENDEZ, New Jersey          GEORGE V. VOINOVICH, Ohio
ROBERT P. CASEY, Jr., Pennsylvania   JIM DeMINT, South Carolina
JIM WEBB, Virginia                   JOHNNY ISAKSON, Georgia

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hicks, Peggy, global advocacy director, Human Rights Watch, New 
  York, NY.......................................................    24
    Prepared statement...........................................    26
Melia, Thomas O., deputy executive director, Freedom House, 
  Washington, DC.................................................    15
    Prepared statement...........................................    18
Nelson, Hon. Bill, U.S. Senator from Florida, opening statement..     1
Schaefer, Brett D., Jay Kingham Fellow in International 
  Regulatory Affairs, the Heritage Foundation, Washington, DC....    29
    Prepared statement...........................................    31
Silverberg, Hon. Kristen, Assistant Secretary, Bureau of 
  International Affairs, Department of State, Washington, DC.....     2
    Prepared statement...........................................     5
    Responses to questions submitted by Senator Feingold.........    42

              Additional Material Submitted for the Record

Coleman, Hon. Norm, U.S. Senator from Minnesota, prepared 
  statement......................................................    42

                                 (iii)

  


  THE U.N. HUMAN RIGHTS COUNCIL: SHORTCOMINGS AND PROSPECTS FOR REFORM

                              ----------                              


                        THURSDAY, JULY 26, 2007

                           U.S. Senate,    
  Subcommittee on International Operations 
                                        and
         Organizations, Democracy and Human Rights,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bill Nelson 
(chairman of the subcommittee) presiding.
    Present: Senators Nelson, Menendez, and Vitter.

   OPENING STATEMENT OF HON. BILL NELSON, U.S. SENATOR FROM 
                            FLORIDA

    Senator Bill Nelson. Good afternoon. Unfortunately our 
member of the committee, Senator Coleman's father has died. And 
so he, obviously, is not going to be here. This just happened, 
and Senator Coleman will be issuing a statement for the record, 
which of course will become part of the record.
    Senator Menendez, did you have an opening statement?
    Senator Menendez. I will wait for questions.
    Senator Bill Nelson. I want to welcome everybody. And we're 
going to be looking into the United Nations' new human rights 
body. And the Assistant Secretary, I appreciate you being here. 
We look forward to your testimony and also a distinguished 
panel of experts from the nongovernmental community.
    In March 2006, the United Nations General Assembly 
disbanded the former Human Rights Commission. It was a 
Commission that had been widely criticized for many things, 
including inclusion of human rights abusers as members. The 
General Assembly created a different body: The Human Rights 
Council. This new, leaner body was intended to improve the 
quality of the membership, making Member States accountable and 
subject to periodic investigations of their human rights 
records.
    By elevating the Council to report directly to the General 
Assembly, reformers hope to be able to take swifter action in 
dire circumstances. But a year later, after its creation, we 
now find ourselves examining the record of a Council that is 
supposedly devoted to promoting human rights all over the 
world, which nonetheless, the record shows, has failed to take 
any action on grave crises, such as the Sudan. Has failed to 
renew the mandates of the Special Rapporteurs for Cuba and 
Belarus, and has regularly passed one-sided resolutions, 
singling out Israel. Eleven such measures criticizing Israel to 
date. And what about North Korea? What about Burma?
    When I raised these concerns privately with the Secretary 
General of the United Nations, he shared my concern regarding 
the unmet expectations of the new Council. He spoke favorably 
of the Council's strong commitment, not to politicize its 
activities. And he told me he would continue to urge the 
Council to proceed with its system of universal periodic 
reviews. These investigations, intended to shed light first on 
the 47 members of the Council, has not begun.
    I am a supporter of the United Nations. I'm a great admirer 
of people like the Secretary General and his efforts to reform 
the United Nations and for people like him who have dedicated 
their lives to world peace.
    I also believe that we should treat each other with mutual 
respect and with truth and candor. Speaking in Geneva last 
month, the Secretary General emphasized, himself, the 
importance of considering all situations of possible human 
rights violations and considering them equally.
    The U.N. Human Rights Council, in my opinion, has yet to 
demonstrate its commitment to all of the countries of the 
world--dealing fairly with them, dealing quickly, and dealing 
justly, with regard to human rights abuses, whenever they may 
occur--in order to protect the world's most vulnerable 
citizens.
    So, the questions before us are, if we are not there yet, 
is this Council at least headed in the right direction? Is it, 
or will it be, any better than what we had before? And if not, 
what do we do about it? We have already reformed the U.N.'s 
human rights apparatus once and the result has been called 
seriously flawed recently, by a State Department spokesperson.
    There are those who will argue strongly in favor of 
continued engagement to achieve progress in human rights. I 
look forward to hearing from our participants today on whether 
such participation is warranted and to what extent the United 
States should support the Human Rights Council. How can we 
affect positive change?
    Senator Vitter, I have just concluded my statement. Did you 
have a statement before we go to our Assistant Secretary 
Silverberg?
    Senator Vitter. I do not. I'm anxious to hear from our 
distinguished guests and witnesses and certainly follow up with 
questions.
    Senator Bill Nelson. Madame Assistant Secretary.

  STATEMENT OF HON. KRISTEN SILVERBERG, ASSISTANT SECRETARY, 
     BUREAU OF INTERNATIONAL AFFAIRS, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ms. Silverberg. Mr. Chairman, Senators, thank you for 
convening this hearing. I'd like to offer the Department's 
condolences to Senator Coleman and his family. I know, of 
course, his strong interest in these issues so I will look 
forward to following up with him when he returns.
    Since the founding of the United Nations, the United States 
has worked to make that body a champion for people living under 
oppressive governments. We've worked for the United Nations to 
negotiate international treaties on human rights, to provide 
technical assistance and training to governments and NGOs, and 
when necessary, to condemn the actions of governments who 
seriously commit human rights violations. Governments like 
Burma and Cuba and North Korea and Sudan.
    And so we have viewed the failures of the Human Rights 
Council with significant sadness. We see a great need for a 
strong and effective multilateral fora on human rights and we 
are deeply skeptical that the U.N.'s Humans Rights Council 
will, at least in the near future, play a constructive role in 
those efforts.
    You are all well aware of the sordid history of the 
Commission on Human Rights, the Council's predecessor, as you, 
Mr. Chairman, laid out. Kofi Annan characterized that body as a 
shadow on the United Nations. And so we helped lead the effort 
in the General Assembly to replace the Commission with a 
Council. When those negotiations fell victim to--in our view--
G-77 politics, and also a lack of political will by some 
democratic states, we voted against the resolution creating the 
Council and did not run for a seat on the Council that May. 
Nevertheless, in the first year of the Council we remained 
actively involved in Geneva.
    Secretary Rice, Under Secretary Burns, Assistant Secretary 
Lowenkron, and I, along with our regional Assistant Secretary 
counterparts, raised the Human Rights Council with our foreign 
counterparts. Assistant Secretary Lowenkron and I--along with 
our Deputies and Ambassador Joseph Rees--traveled to capitals 
to raise Human Rights Council issues. And of course, our 
delegation in Geneva, led by Ambassador Warren Tichenor, 
remained actively involved in Human Rights Council matters.
    Despite our best efforts in this regard, the Council has 
been remarkably a step backward, in our view, from its 
predecessor. It has passed 13 anti-Israel actions and some weak 
noncondemnatory actions on Sudan, and it has done nothing of 
note on Belarus, Burma, Cuba, North Korea, Turkmenistan, 
Uzbekistan, or Zimbabwe. We were especially dismayed by the 
final session of the Council's first year, which was focused on 
completing the institution-building package; the rules and the 
systems that would define the Council's operations. At the end 
of this session, in a back-room deal, concluded in the dark of 
night without agreement from the full Council, a small group of 
members decided to push through a final agenda that singled out 
Israel as the only country subject to a permanent agenda item 
and to eliminate the Special Rapporteurs on human rights for 
Cuba and Belarus, giving those undeserving governments a 
victory before the Council had acted to address other critical 
issues.
    I should note that throughout these discussions, Canada--
which has been a stalwart defender of human rights--and a few 
select allies remained firm in their principled opposition to 
this deal. We think there are a number of reasons for the Human 
Rights Council's failure in this first year.
    One is the makeup of the Council. Twenty-eight of the 
Council's forty-seven seats are held by members of the Non-
Aligned Movement, a group that typically supports economic and 
social and cultural rights over civil and political rights. 
Seventeen of the NAM members are also members of the 
organization--the Islamic Conference. And the decision of this 
membership to make Israel-bashing a priority of the Council 
hasn't done much to enhance its credibility.
    We think that the failure of the Council is a failure of 
Member States, rather than a failure of the United Nations as 
an organization. I'd like to quote one former Ambassador to the 
United Nations, who said that, ``blaming the United Nations for 
what happens inside the tall palaces on the East River is like 
blaming Madison Square Garden for a poor showing by the New 
York Knicks.'' Ambassadors who show up in Geneva are there with 
instructions from their capitals, and those instructions are 
what will determine whether this Council is a success or a 
failure. This is a responsibility of the Member States who make 
up the Council.
    Some of our traditional allies have correctly pointed out 
that there are some positive outcomes from Geneva. One is the--
or I should say potentially positive outcomes from Geneva--the 
universal periodic review, which you mentioned, where the 
Council will evaluate the human rights records of each United 
Nations Member State. We think this has potential to do good, 
but there are some real risks involved in the process. No 
special importance will attach to particular governments' human 
rights, no matter how unaccountable or abusive they've been in 
the past. So, Sudan will get the same scrutiny as Norway. And 
there's a real danger that this universal periodic review 
produces reports that suggest that because we all have human 
rights issues, we're all equally bad.
    We hope, of course, to be wrong in our skepticism about the 
Council. We hope that Council members will rise to the 
occasion; will stand up for our shared values of the Council. 
However, we're not optimistic, to be honest. We therefore think 
we need to redouble our efforts in other multilateral fora. 
There are many important ways for the United States to engage 
on human rights issues, promoting direct technical assistance 
to strengthen institutions in developing countries. And so, to 
that end, we've supported doubling the resources of the Office 
of the High Commissioner for Human Rights.
    We've supported the U.N. Secretariat's Electoral Assistance 
Division, which does good work worldwide in election monitoring 
and training. They lent logistical and strategic support to 
over 20 elections in the last year. We remain very hopeful that 
the U.N.'s General Assembly's Third Committee can play a 
constructive role. We had good success in both 2005 and 2006, 
passing some strong resolutions condemning the world's worst 
violators and we'll continue to do that in the following year. 
And finally, we'll work to strengthen coalitions with our 
allies, as well as encourage better regional partnerships.
    With the ministerial level conference being held in Mali in 
2007, the Community of Democracies has potential to become a 
more robust organization. We are deeply engaged in helping to 
promote the human rights efforts of other organizations like 
the OECD, the OAS. We've increased outreach to the African 
Union on human rights issues and we are in the initial stages 
of establishing an exciting new forum for Asian countries to 
focus on democracy promotion.
    So with that, I look forward to your questions.
    [The prepared statement of Ms. Silverberg follows:]

Prepared Statement of Hon. Kristen Silverberg, Assistant Secretary for 
International Organization Affairs, Department of State, Washington, DC

    Mr. Chairman, thank you for convening this hearing to discuss the 
U.N. Human Rights Council (HRC) at the end of its first year. I 
appreciate the opportunity to present the Department's views.

                U.S. AND MULTILATERAL HUMAN RIGHTS WORK

    Since the founding of the United Nations, the United States has 
worked to make that body a champion for people living under oppressive 
governments. The United States has worked through the United Nations to 
negotiate international treaties on Human Rights, including the 
International Covenant on Civil and Political Rights and the Convention 
against Torture and Other Cruel, Inhuman or Degrading Treatment or 
Punishment. We have worked through the United Nations to provide 
technical assistance and training. For example, we are today the 
largest funder of the Office of the High Commissioner for Human Rights. 
And, when necessary, we have worked through the United Nations to 
condemn the actions of governments who have committed serious human 
rights violations, such as Burma, Cuba, North Korea, and Sudan. 
Although we remain committed to supporting human rights in the 
multilateral system through the United Nations, we are deeply skeptical 
that the U.N.'s Human Rights Council will, in the near future, play a 
constructive role in our efforts. I am grateful for the opportunity to 
talk with you about the problem as we see it and to discuss with you 
some of the options for addressing it.

                HISTORY OF THE U.N. HUMAN RIGHTS SYSTEM

    The United Nations Commission on Human Rights was founded in 1947 
to be the global body for the protection and promotion of human rights. 
By the start of this decade, however, the Commission had become a 
highly politicized refuge for serial abusers, such as Sudan, Zimbabwe, 
and Syria, who sought to use membership in the body to protect 
themselves from international scrutiny. In 2001, Sudan won a seat on 
the Commission while the United States, a member since the body's 
inception in 1947, failed to win reelection. After 2003, when Libya was 
elected President, Kofi Annan characterized the body as ``a shadow on 
the United Nations.'' In the 2005 U.N. 60th anniversary World Summit 
Outcome Document, the United States led the call in the General 
Assembly for a new body to replace the Commission. To ensure the body 
would be credible and effective, we said that membership should require 
elections by a two-thirds majority and that nations under U.N. Security 
Council sanctions for terrorism and human rights-related reasons should 
be excluded from membership.

                  NEGOTIATING THE CREATION OF THE HRC

    Throughout the negotiations to create the Human Rights Council we 
confronted expected resistance from antidemocratic states, but we were 
disappointed that many democratic countries with strong human rights 
traditions were willing to compromise on the final outcome, making it 
impossible to agree even on the most modest safeguards against the 
problems that led to the Commission's loss of credibility. Because of 
our deep dissatisfaction with the Council's structure and rules, we 
voted against its creation in March 2006 and did not run for a Council 
seat that May. However, we decided to stay actively engaged as an 
observer at the Council.
    In this first year, we have worked actively with our allies and 
other democratic countries in order to help the Council meet its 
mandate to protect and promote human rights. Secretary Rice, Under 
Secretary Burns, Assistant Secretary Lowenkron and I, along with 
regional Assistant Secretaries as necessary, raised Human Rights 
Council issues with our counterparts. Assistant Secretary Lowenkron, 
his Deputies, and I, along with Senior Advisor Ambassador Joseph Rees, 
traveled to capitals to raise Human Rights Council issues. And of 
course, our delegation in Geneva, led by Ambassador Warren Tichenor, 
remained actively involved in Human Rights Council matters.
    Unfortunately, despite our best efforts, the Council has been worse 
than its predecessor. It has passed 13 anti-Israel actions and 3 weak, 
noncondemnatory actions on Sudan, and it has done nothing on Belarus, 
Burma, Cuba, North Korea, Turkmenistan, Uzbekistan, or Zimbabwe. We 
were especially dismayed by the most recent and final session of the 
Council's first year, which was focused on completing the 
``institution-building'' package, the rules and systems that define the 
Council's operations. At the end of the session, in a back room, in the 
dark of night, without a vote, a small group of Council members decided 
to push through a final agenda that singled out Israel as the only 
country subject to a permanent agenda item and to eliminate the Special 
Rapporteurs on human rights in Cuba and Belarus, giving those 
undeserving governments a victory before the Council had acted to 
address other critical cases.
    We found it troubling that some of the most democratic members of 
the Council supported these measures in order to achieve consensus on 
the seriously flawed institution-building package. We were particularly 
disturbed that the decision was made to deny Canada and other allies 
their procedural rights to call for a vote on the package.

                     REASONS FOR THE HRC'S FAILINGS

    The Commission was a subsidiary body of the Economic and Social 
Council and the regional distribution of its 53 seats reflected that 
organization's slight Latin American, Eastern Europe, and Western Group 
majority. The Human Rights Council, however, is a subsidiary of the 
General Assembly, and its geographic distribution mirrors the 
substantial Asian and African membership of its parent body. In its 
first year, 28 of the Council's 47 seats were held by members of the 
Non-Aligned Movement (NAM), a group that typically supports economic, 
social, and cultural rights over civil and political liberties. 
Seventeen of the NAM members were also members of the Organization of 
the Islamic Conference. The decision of the NAM-dominated membership to 
make Israel the primary focus of the Council's scrutiny has done much 
to undercut its credibility. The Council's membership includes some 
members that routinely violate the rights of their citizens, such as 
Cuba. We have been clear from the beginning that the credibility of the 
Council would depend on its ability to act on the most egregious cases 
of human rights abuse globally--to make a difference for the victims of 
abuse. We are deeply disappointed in the Council's failure to act to 
hold to account governments that systematically abuse their people.
    We believe that the primary responsibility for these failures of 
the Human Rights Council lies with Member States, rather than the 
United Nations as an institution. In the words of one former U.S. 
Ambassador to the United Nations, ``Blaming the United Nations for what 
happens inside the talk palaces on the East River is like blaming 
Madison Square Garden for a poor showing by the New York Knicks.'' The 
United Nations deliberative bodies reflect the views of Member States 
who send their ambassadors instructions.

                   UNIVERSAL PERIODIC REVIEW PROCESS

    As one positive outcome of this first year, some of our traditional 
allies have correctly pointed to the Universal Periodic Review, during 
which the Council will evaluate the human rights record of each United 
Nations Member State. However, there are some real risks that this 
process will not work as intended. The cumbersome review process will 
take at least 4 years for the Council to review all Member States, and 
no special importance will be attached to reviewing the governments 
with the worst human rights records. Norway will be as high a priority 
as Sudan. Even more important, the quality of the review process and 
the final decisions that will result from the reviews will be 
constrained by the extent to which HRC members are committed to putting 
human rights principles above international politics.

                               NEXT STEPS

    We hope to be wrong in our skepticism about the Council's future. 
We hope that Council members, especially the nearly one-half of the 
members that are democracies with good domestic human rights records, 
will stand up for our shared values at the Council and work to set it 
on the right track. However, based on what we have seen to date and the 
underlying structural flaws in the way the Council was created, we 
cannot be optimistic. We believe the United Nations should take a 
leading role in human rights work, but we have serious questions about 
the Human Rights Council's ability to contribute materially to such 
work.
    We therefore need to redouble our efforts in other multilateral 
fora. There are many important ways for the United States to engage in 
multilateral human rights through the United Nations. Among them are 
direct technical assistance to strengthen institutions in developing 
countries and human rights monitoring and training. We have supported 
increased resources for the Office of the High Commissioner for Human 
Rights to increase cooperative technical assistance to Member States. 
It can be far more cost-effective to provide support for fieldwork 
rather than for a Geneva-based bureaucracy. For example, the U.N. 
Secretariat's Electoral Assistance Division has done good work 
worldwide in election monitoring and training. U.N. officials lent 
logistical and strategic support to over 20 elections in the last year 
and a half alone, including in Afghanistan, the Palestinian Authority, 
Iraq, and Burundi.
    We also remain hopeful that the General Assembly's Third Committee 
can play a constructive role. In both 2005 and 2006, the Committee 
passed strong resolutions condemning some of the world's worst 
violators. We will work with allies to focus on key priorities, in 
particular on abuses the Council has failed to address.
    Additionally, we will strengthen coalitions with our allies as well 
as encourage better regional partnerships. With the ministerial-level 
conference being held in Bamako, Mali, in 2007, the Community of 
Democracies has the potential to become a more robust organization. The 
United States is deeply engaged in the human rights work of 
organizations such as the Organization of Security and Cooperation in 
Europe and the Organization of American States Inter-American 
Commission on Human Rights. This year we increased outreach to the 
African Union on human rights issues. And, we are in the initial stages 
of establishing a similar forum for Asian countries to focus on 
democracy promotion.

                               CONCLUSION

    As we have seen, the Human Rights Council is a troubled 
organization that increasingly appears unable to carry out its mandate 
to promote and protect human rights around the world. We must redouble 
our efforts to work in effective fora on behalf of the world's 
vulnerable people.

    Senator Bill Nelson. Senator Menendez.
    Senator Menendez. Well, thank you, Mr. Chairman.
    Madame Secretary, thank you for your testimony.
    I have to be honest with you. It's amazing to me that not 
just the Council--but where is our diplomacy? I agree, I think 
you said the Knicks, right? All right, I just want to make sure 
it's not the Nets. [Laughter.]
    Senator Menendez. I would be upset if it was the Nets.
    The, you know, where is our diplomacy? As you say, it's the 
member countries at the end of the day that are going to have 
their Ambassadors reflect those votes. And I look at, for 
example, what happened with the Council and the Special 
Rapporteurs on Cuba and Belarus being eliminated. And it seems 
to me that it is an abdication by Mexico, and what I had 
thought was its commitment to human rights, that moves in a 
different way. But where was our engagement and our advocacy 
from government to government with Mexico? Where was our 
engagement from government to government with a whole host of 
these other countries?
    You know, if you are languishing in Castro's jails in Cuba, 
the elimination of the Special Rapporteur is not welcome news. 
If you are one of the human rights activists trying to create 
civil society inside of Cuba, you are not welcoming the 
Council's action. If you are one of the political independent 
journalists or economists or political dissidents inside of 
Cuba, often who are jailed for their activity, you are not 
welcoming the Council's actions.
    So, you know, I look at Mexico and Chairman de Alba and I 
wonder, where were we, though, in that respect? I wonder 
whether we are taking the right role in simply criticizing--
although it is certainly--it is more than meritorious of 
criticism, the Council's actions--but where is the leadership? 
Where is the leadership of the democratic countries in the 
world, in this respect?
    And I look at it and it seems that Israel, in addition to 
getting rid of the Special Rapporteur--Israel is reserved as 
the only--the only country in which we have established one 
permanent and special agenda item. It's beyond amazement; 
beyond amazement.
    And then finally, the process here, you know, to herald 
that we're going to have all of the countries go through a 
review, and suggest that that's a victory. Well, as you suggest 
that, in fact, everybody is the violator at the end of the day, 
and we will judge it on equal terms. But beyond that, it also 
seems to me that that whole process is yet to be defined as to 
how it's going to take place. And that can be totally 
manipulated as well.
    And so I--yes; there's plenty to condemn in my mind, big 
time, about the Council. And I think this Council, so far from 
what I see, is no more promising than the Commission. And I 
don't see this as reform. But what really bothers me is: Where 
is our leadership in this regard? It seems to me to be, to have 
been subverted to a whole host of other things. And maybe it is 
that we don't have the ability, for so long as we're bogged 
down in Iraq and other places, to lead. I would hope that we 
can. But where's our leadership? Where were we with the 
Mexicans? Where were we with the others in trying to move this 
agenda in a different direction, even if we had decided not to 
be a Council member?
    Ms. Silverberg. Senator, thank you.
    I agree with you entirely that U.S. leadership is 
essential, it's critical. The United Nations will not act on 
human rights issues without a strong U.S. hand pressing these 
agenda items. We repeatedly raised this issue with the Mexicans 
throughout Chairman de Alba's time in the chair. We raised it 
in Geneva, in fact, Ambassador Tichenor on this final night 
when the decision was made in the back room--illegitimately, in 
our view--as in the negotiations until midnight. Our 
Ambassadors in capitals--not just in Mexico City, but really 
for all the Council members--are very accustomed to getting 
requests from me to deliver demarches, noting our strong 
concern with some of these agenda items. Secretary Rice raised 
it personally with her Mexican counterpart and Canadian 
counterpart in their last meeting.
    I've traveled personally on these issues, and Ambassador 
Rees--sitting behind me--has been getting a lot of frequent 
flier miles on his trips to Latin America, to Africa, and to 
Asia to press Human Rights Council's issues. Barry Lowenkron 
did as well.
    So, I think there was no question in the mind of any Human 
Rights Council member where the United States priority was on 
keeping the Cuba and Belarus mandates. I think if not for our 
engagement, we would not have been able to persuade the member 
governments who were prepared to raise objections to this final 
agenda item. I think that our lobbying, in that regard, made a 
big difference.
    But as I said, at the end of the day there was major 
procedural irregularity that denied those countries the right 
to object. There was a circumvention of the Human Rights 
Council rules. And I've raised our concerns directly with the 
Mexican Government on their representative's role in that.
    Senator Menendez. Now, what was their response?
    Ms. Silverberg. They stated, I think correctly, that a 
chairman of a committee has a responsibility to try to 
negotiate a deal and we didn't object to him trying to reach a 
consensus agreement. But there wasn't, at the end of the day, a 
consensus. And so, our objection was that the Canadians and 
others should have been allowed to call for a vote.
    You know, the Mexican Government is one of our closest 
partners on these issues. We've worked so constructively with 
them on a range of issues. So really, to us, it was a 
disappointment, partly because we think it was a violation, it 
was an abandonment of their priorities and values, to agree to 
this final deal.
    Senator Menendez. Well, maybe if we keep building walls, 
things will improve.
    Let me ask you this: What's our role now? I mean, to be 
very honest with you, it sounded like we are impotent at the 
end of the day. That's what, I mean, I hear about your 
demarches and the participation, but it didn't produce very 
much. It didn't even produce the ability to achieve a success 
on a procedural vote. Where are we at in terms of pursuing an 
aggressive human rights policy, as it relates to the Council?
    I mean, we have a third of the way this is structured with 
these regional entities deciding who goes on, for example. 
Maybe the reason that Israel is the only country in the world 
that has a permanent agenda item is because a third of the 
entire Council comes from the membership of the Islamic 
Council. That might be a reason.
    Ms. Silverberg. I think--I do not think the United States 
is impotent on these issues. I still think we have a lot of 
levers we can use to press human rights concerns 
multilaterally.
    And just to give you some examples: Security Council in a 
way the United States has not frequently done so, to help bring 
human rights issues that have a connection to threats to 
international peace and security into the Council. We've done 
that over the objection of some of our allies on the Council, 
but we've really tried to use that opportunity selectively and 
strategically.
    President Bush's engagement with human rights dissidents 
around the world and Mrs. Bush's engagement as well, has been a 
way that we can help drive our U.N. agenda, bringing some 
attention to issues that would otherwise fall off the radar 
screen. We've had a very ambitious agenda in the U.N.'s Third 
Committee to help pass condemnatory resolutions on North Korea 
and Burma and Belarus and Iran.
    So I think there's a lot we can do. But I do think we need 
to be realistic about the shortcomings of this body. I do think 
we need to focus U.S. attention where it's likely to be the 
most effective. And I think it's not an admission of impotence 
to say that many times Member States will not take their 
guidance from us. They will cast their votes according to what 
they see as their national interest.
    One important thing we can do, and one important role that, 
I think, Congress has to play in helping to drive our agenda, 
is to let countries know that their votes on human rights 
issues will be a factor in our bilateral relationship. That 
we're keeping an eye on how countries act in Geneva and New 
York and other multilateral fora. And so, and I think that's 
something that Members of Congress can help us do very 
effectively.
    Senator Menendez. Mr. Chairman, I don't want to belabor my 
time, I will just close on it, and I appreciate the Chair's 
indulgence.
    Let me just say, I appreciate your urging Congress to do 
something, I think the administration needs to make it very 
clear in its bilateral relationships that this--this question 
of human rights--is a major threshold, and significant part of 
the equation of how this administration will look at other 
countries. Unless it happens there--since the primary promotion 
of foreign policy ultimately comes through the President--
unless it happens there, we can do in Congress all of these 
other things, but I just don't think that we've had, that we've 
had that attention. I don't think that we've had that message. 
I don't think that we've created that threshold. I don't think 
we've made it as intricate a part of our policies as it's been 
in the past.
    And I think the results are what we're beginning to see. 
And it is going to undermine other key issues that we are 
concerned about, above and beyond human rights, as it relates 
to countries who now will believe that they can largely act 
with impunity, because we have a system that, No. 1, doesn't 
work, and No. 2, because we don't make it a significant enough 
issue, and therefore with a wink and a nod, we say other things 
are more important to us. That is a dangerous slope to begin to 
go on, and that's where, I fear, we're headed.
    Thank you, Mr. Chairman.
    Senator Bill Nelson. Thank you, Senator Menendez.
    Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman.
    Thank you, Madame Secretary for your work. I'm glad you 
mentioned our colleague, Senator Coleman. As you know, he has a 
bill that this committee has approved, that would end U.S. 
funding to the Human Rights Council, and I certainly support 
that.
    In light of everything you've said, I would argue that it's 
so bad, that we need to go beyond where we are, of not running 
for membership, and say, ``This is just beyond the pale; this 
is a kangaroo court,'' if you will, and withhold our funding. I 
realize our funding is not going to stop the operations of the 
Council dead in its tracks, but I think that's a darn 
significant step that we should take. Why shouldn't we do that?
    Ms. Silverberg. I think, Senator, we'd certainly share the 
sentiment behind the Coleman legislation, this really profound 
frustration with the Council, in fear that it's doing harm to 
our human rights agenda.
    The one thing we would--we want to make clear, though, is 
that we would not expect the legislation to result in a 
decrease in the resources available to the Human Rights 
Council. It might have a valuable symbolic message, but it's 
unlikely to actually decrease the amount of resources available 
to the Council. The Human Rights Council, as you pointed out, 
is funded out of the U.N. regular budget. Because money is 
fungible, the United Nations can redirect its resources, and 
even if we withhold our, roughly, $3 million a year, it can 
redirect resources to cover that.
    Senator Vitter. Well, just to be clear, I understand that, 
and I tried to say that in my question. But, why shouldn't we 
do that, for the very clear message it sends about what an 
utter farce we think the whole enterprise is?
    Ms. Silverberg. I think it might send an important symbolic 
message, I don't think that withholding legislation along these 
lines would undermine our efforts in the United Nations, but I 
do think we have a general position at the State Department, 
that we should pay our U.N. dues, I think it's very important 
that I, as Assistant Secretary, call on Congress to fully pay 
our dues to the United Nations, but I cannot tell you that it 
would injure our agenda at the United Nations.
    Senator Vitter. And maybe that's the logical conclusion of 
where we're heading, because I really think when things get so 
out of hand, and so ridiculous, in terms of actions at the 
United Nations, including this, but not limited to this, we 
need to consider those other options.
    I share a lot of members' concerns about the actions and 
votes of some members of the Council, who are supposed to be 
some of our closest allies. For instance, on at least one vote, 
Canada was the only member to vote against a decision to make 
Israel a permanent item on the Council's agenda. To take that 
instance--what did we do, in terms of responding to our other 
allies, who voted outrageously in the other direction? What did 
we do before, and after that?
    Ms. Silverberg. We lobbied very heavily in advance of the 
adoption of this permanent agenda item. Primarily focused on 
our European allies, where we thought there really was an 
opportunity to persuade them to draw a hard line. When, as I 
said, in Geneva, we were very active in the negotiations, 
raising our objections at every turn. We persuaded both Canada, 
and some other Member States to raise objections in Geneva.
    When all of that failed, we had both from me, but all the 
way up to the Secretary, we had discussions with Council 
members--especially our allies--about our disappointment with 
their behavior, in the final decisionmaking package.
    Senator Vitter. Let me ask this bluntly: Did we do anything 
after the fact, besides express our displeasure?
    Ms. Silverberg. Our primary response has been to express 
our displeasure. Secretary Rice has done it, directly. And I 
think that point was taken by Member States. I called in 
Ambassadors to discuss our concerns----
    Senator Vitter. No other concrete action besides saying, 
``Gee, we don't like this''?
    Ms. Silverberg. Well, I think the appropriate response is 
to express our strong displeasure at Member States, and their 
conduct.
    Our real disappointment in this case was with the 
Europeans, and other governments that have a strong commitment 
to human rights. This is the kind of thing we would have 
expected from some other members of the Council, it's not the 
kind of thing we would have expected from our strongest allies.
    Senator Vitter. And finally, I just want to bring up a 
related farce, related to North Korea and the U.N. Development 
Program, and the fact that there have been all sorts of abuses 
there--abuses of the U.N.'s own rules that are clear; that are 
set in place. For instance, the Development Program hired North 
Koreans designated by the North Korean Government, gave them 
control over project resources on site activity, paid them in 
hard foreign currency--all of that completely contrary to the 
rules. And we even think maybe $107 million may have been 
diverted to the North Korean regime. What can we do to ensure 
that that sort of flagrant abuse of the U.N.'s own rules 
doesn't happen over and over again? Oil for food, North Korea, 
et cetera?
    Ms. Silverberg. We don't know the figure that was diverted 
to the North Korean regime, so I cannot tell you that it was 
$100 million, or any other figure. These are all allegations, 
but we really don't know the exact facts.
    What we did in this case was shut down the UNDP Program in 
North Korea, precisely because we don't have the confidence, 
and other board members don't have the confidence that we can 
protect this kind of----
    Senator Vitter. But, if I can interrupt?
    Ms. Silverberg. Yes.
    Senator Vitter. I know--and I'll acknowledge--I know the 
$100 million is a suspicion. We do know that all of those other 
rules were broken, with regard to hiring North Koreans, giving 
them access to hard currency, et cetera, et cetera--that's 
pretty much confirmed, correct?
    Ms. Silverberg. Yes. Senator, you're right--the preliminary 
audit from UNDP confirmed that UNDP had violated the U.N. rules 
in terms of both how staff was supplied, limited access in 
terms of monitoring, provision of hard currency. We've also had 
some eyewitness allegations that money that was provided from 
UNDP was provided to the North Koreans for some dual-use items, 
that would have been a cause for concern from the United 
States. And we've had allegations that money that was provided 
to North Korea was diverted for unintended uses, including some 
real estate acquisitions and other things. We have raised some 
very serious concerns.
    We fought in the Board for a decision to shut down the 
North Korea program while we uncovered the rest of the facts. 
And what we've been working on is, basically, some provisions 
that would give us greater transparency over all of UNDP's 
activities, and really the activities of the full U.N. system.
    Senator Vitter. Let me go to that, and ask in another way, 
besides after-the-fact audits--which are obviously limited 
impact, because they're after the fact--what can we do before 
the fact, before the next fact, to prevent this? And, is there 
any progress with regard to that?
    Ms. Silverberg. I think that all of our transparency 
initiatives are things that would give us indications while 
some illicit activity was happening. I think they are good 
things that can actually flag something before the violation.
    Senator Vitter. And, to what extent are they being adopted?
    Ms. Silverberg. The UNDP actually has adopted a number of 
our changes, with regard to access to internal documents. We're 
now trying to take that to the full U.N. system. The Secretary 
General has been helpful in this regard, because he called for 
a U.N. systemwide audit of activities in North Korea, so that 
we know where the risks and opportunities for violations are.
    So, I can't say we're at the answer yet; there's still a 
lot of information we don't have about what happened in North 
Korea, and a lot information we don't have about how other U.N. 
organizations are conducting their activities, but this is 
something that we're raising with the Secretary General and 
Kamal Dervis on a regular basis.
    Senator Vitter. OK, thank you.
    That's all I have, Mr. Chairman, but thank you for your 
work.
    Senator Bill Nelson. Madame Secretary, can you help us 
understand what would be going through the minds of the Council 
members, when they renew the mandates of the Special 
Rapporteurs, but don't for Cuba and Belarus? Those two 
countries were lost in what's been called a ``horse trade.'' 
Help us understand what's going on in the minds of the Council 
members.
    Ms. Silverberg. I suspect, Mr. Chairman, although I am 
speculating from here, that a couple of things were going on.
    One is that there's this strong predilection from a lot of 
Member States this--that interference in the internal affairs 
of a particular country ought to be off limits. So, there's a 
view from many Member States, that the United Nations ought to 
do things, such as cooperative, technical assistance, that are 
done with a government, but that the United Nations should not 
take action to condemn governments. These were two Special 
Rapporteurs who were condemnatory, who were there without 
support of the governments. And so, for a lot of Member States, 
it was really pushing on an open door, I think, to say, ``You 
ought to get rid of them.''
    In addition, you had--opposing these Special Rapporteurs--
some governments that are very effective, and powerful in the 
United Nations system--Cuba and Russia--supporting their 
elimination. So, I think that probably added to the equation.
    And then, to add to all of that, there was a belief by some 
European governments, even from some NGOs that have the 
strongest records on these issues, that at the end of the day, 
they needed to cut a deal. That, basically, we need to come to 
some consensus agreement at the Council, that we couldn't risk 
a vote, that would cause the entire final agreement to 
collapse. And so, that we had what was in some cases, a 
tactical disagreement about whether it was better to call for a 
vote, to make countries take a stand, or whether it was better 
to accept what we thought was just a fundamentally flawed 
compromise.
    Senator Bill Nelson. And all the time, we, the United 
States, are sitting there as an observer.
    Ms. Silverberg. Mr. Chairman, most of these negotiations 
were taking place in side rooms, and discussions throughout 
Geneva, and we were very actively engaged in every case.
    We are also particularly active in foreign capitals, 
helping to make the case for a strong package. I think there 
was, really, no confusion at all, either about our views, about 
the importance we attached to the Special Rapporteurs--I think 
that part was very clear in Geneva.
    Senator Bill Nelson. I've talked--as I indicated in my 
opening comments--with the Secretary General privately about 
this, and he's even said publicly, as I quoted in my opening 
comments, his concern with the operation and the functioning of 
this Council. And, when a Council issues and does such work 
that is so violative of what is common sense, it seems that 
it's time for us--especially since we're paying 27 percent of 
the tab--that it's time for us to let our displeasure be known, 
and to do something about it. And that's the whole reason that 
I called this hearing.
    So, why don't you tell us--I heard your previous answer to 
previous questioners, but let's state it very clearly for the 
record--given the reservations and the apprehension that you 
have about the Human Rights Council, should we continue to fund 
it?
    And I know what you said about, it comes out of the General 
Fund, but you know, a 27-percent cut of that $3 million would 
be a fairly significant placement of a marker.
    Ms. Silverberg. Sir, whatever happens with the Coleman 
legislation, we will inevitably continue to fund this Human 
Rights Council. And the reason is that our payment--in this 
case, 22 percent of the Human Rights Council budget--comes out 
of the U.N. regular fund. And so, even if we withhold the $3 
million, they can still take funds that come from the U.S. 
Government, and other countries, and redirect the same amount 
of resources to the Human Rights Council as they would 
otherwise.
    So, this is not to express opposition to Congress' very 
understandable desire to express a strong view about the 
failures of the Human Rights Council, it's only to say that the 
Human Rights Council will have the same amount of resources, in 
all likelihood, at the end of the day.
    In this case, the $3 million might help send an important 
symbolic message, but it's unlikely to impact the Council.
    Senator Bill Nelson. So, stay the course?
    Ms. Silverberg. No, sir. I think we should not stay the 
course. I think we have a number of options that can help keep 
the U.S. leadership position on human rights, that can help 
maximize our chances of being able to actually affect the lives 
of people living under oppressive governments. Some of those 
things, I think, involve focusing on other fora. And that 
means, the Third Committee, the General Assembly, it means 
technical assistance with the Office of the High Commissioner, 
and I think it means looking at some non-U.N. opportunities, 
including the ones I mentioned--OAS, and OECD.
    Senator Bill Nelson. We--of course, there are members of us 
on this committee who, with our 22-percent contribution to the 
United Nations, think that that should go to more realistically 
reflect the United Nations, the United States obligation. Which 
is, I think, somewhere in the range of 25 percent. And, of 
course as we try to make that happen, it's hard to make that 
happen when you have a rogue Council like this, running around, 
doing such things that are violative of common sense.
    Ms. Silverberg. Yes, sir. I share that concern, and I think 
that was an important point that you made to the Secretary 
General, to let him know that this really is casting a shadow 
on the larger body.
    We have been very supportive of a range of U.N. 
activities--U.N. peacekeeping in places like Darfur, in places 
like the Congo. And this kind of thing makes it harder to make 
the case--both to you, to Members of Congress, and also to the 
American public--that the United Nations really can be a 
valuable partner in the U.S. foreign policy agenda.
    Senator Bill Nelson. Do you, personally, know of anything 
that the Council has done about Darfur?
    Ms. Silverberg. The Council passed, what we thought, were 
some pretty feeble actions on Darfur. One resolution in 
particular was weaker than a resolution we opposed in 2004, 
because it was too feeble. Sudan is the one example where the 
Council has taken some country-specific action on a country 
other than Israel. But in our view, it really was much weaker 
than is appropriate, given the circumstances.
    Senator Bill Nelson. Did it say that the Sudan ought to be 
condemned for all of the rape and mayhem and murder and 
starvation that has occurred in Darfur?
    Ms. Silverberg. No, sir; the language was not that strong. 
I would have to check the exact resolution, but I think it was 
along the lines of expressing concern. But no, it did not 
include the kind of language we would have supported, along 
those lines.
    Senator Bill Nelson. No action with regard to some of the 
similar kind of activities in Eastern Chad within the last 
year?
    Ms. Silverberg. No, sir.
    Senator Bill Nelson. Well, thank you very much for your 
testimony. We want to shine the spotlight on this problem, and 
it is a problem, because there are members up here who are 
supportive of our position of supporting the United Nations, 
because it's the right thing to do, that nations should be 
talking to each other, and working out their differences. And I 
am one among those supporters. But, it sure makes our job a lot 
harder when you have a rogue activity, such as this Council, 
going off in all kind of--as we say in the South, cockamamie--
positions that defy the common sense of human rights.
    Thank you, Madame Secretary, we appreciate it.
    And we'd like to ask up the next panel, please.
    Mr. Thomas Melia, who is deputy executive director of the 
Freedom House, Ms. Peggy Hicks, the global advocacy director of 
the Human Rights Watch, and Mr. Brad Schaefer, Kingham Fellow 
in International Regulatory Affairs at the Heritage Foundation.
    So, we will just take you all in the order that I called 
you, and what we'd like--your written testimony will be part of 
the record, I don't want you to sit there and read it back to 
us; I want you to talk to us. And then we'll get into some 
questions.
    So, Mr. Melia, thank you for coming.

   STATEMENT OF THOMAS O. MELIA, DEPUTY EXECUTIVE DIRECTOR, 
                 FREEDOM HOUSE, WASHINGTON, DC

    Mr. Melia. Thank you, Chairman Nelson, and thank you for 
inviting Freedom House to be here today, and I do ask that my 
complete testimony be submitted.
    Senator Bill Nelson. It already has been.
    Mr. Melia. Thank you, sir.
    You know that Eleanor Roosevelt was not only the first 
chairperson of the Human Rights Commission, and in that 
capacity presided over the drafting of the Universal 
Declaration of Human Rights, but that she was a founder of 
Freedom House. When we got started, we focused on the founding 
of the United Nations, and all of the work that's gone on for 
these last 60 years. So we come to this discussion today with 
an inherited predisposition to think that it is possible to 
build an international order, based on the rule of law, and 
respect for human rights.
    We did not disagree with the position of the Bush 
administration last year that the Council was flawed at its 
creation in 2006, the view that led the U.S. Government to cast 
one of just four votes against the enabling resolution in March 
2006. Yet, we thought that it was possible that, with vigorous 
American diplomacy, and concerted action by the democracies of 
the world, the new basis for election to the Council, in which 
the entire General Assembly would choose members, rather than 
leave it in the hands of the regional groups, could result in a 
credible body of states, seriously interested in fulfilling the 
mandate of the Council.
    The Council has now concluded its first year of operation, 
and a second election has been conducted. Our assessment is 
that the Council does not, at this point, constitute an 
improvement over its predecessor.
    The dictatorships of the world take this Council very 
seriously. They see it as a serious threat, and they work 
assiduously to thwart those who want to see it succeed. And, up 
to this point, they're winning more often than the defenders of 
human rights are winning.
    We all remember that great line from Yates, ``The best lack 
all conviction, while the worst are full of passionate 
intensity.'' We see that at the U.N. Human Rights Council, the 
worst are very intense. The United States, however, ought to be 
engaged on human rights with comparably passionate intensity, 
and ought to be engaged in mobilizing our allies to see things 
in the same way.
    I won't go through the litany of the record of the last 
year. You know about the Special Rapporteurs and that half the 
portfolio that was inherited from the Commission has been 
abolished. You know about the Israel-bashing, and the overfocus 
on that one situation. No other country-specific resolutions 
were adopted, other than the watered-down one that was just 
discussed about Darfur. Nothing on Burma. Nothing on Cuba. 
Nothing on North Korea. Nothing on Uzbekistan or Zimbabwe or 
Iran. Not any of the situations that we describe as the ``Worst 
of the Worst'' in our annual publication on human rights.
    Interestingly, however, the U.N. General Assembly's Third 
Committee--it was mentioned previously, and briefly--was more 
successful than the Human Rights Council in this past year, at 
condemning specific countries for human rights violations. It's 
composed of all 192 Member States of the United Nations. The 
Third Committee, in December, passed resolutions, sanctioning 
Belarus, Burma, Iran, and North Korea for human rights 
violations.
    This means that we've now arrived at the curious place 
where the equilibrium on human rights standards--that 
collective understanding of what constitutes a violation 
serious enough to warrant public comment and condemnation--is 
lower in the Human Rights Council than it is in the U.N. 
General Assembly.
    At the Human Rights Council, important democracies such as 
India, South Africa, and Brazil, among others, have failed to 
exercise the leadership that the world needs from them now, and 
it would bolster their contentions that they belong among the 
world's leading powers, as permanent members of the U.S. 
Security Council.
    Assistant Secretary Silverberg made this very clear as she 
talked about all the administration's efforts to try to improve 
the Council--there has been an extensive bilateral series of 
meetings that she talked about. Yet, one is left wondering, as 
Senator Menendez asked, whether this is well-focused, or 
efficient, or successful enough.
    Clearly, the absence of U.S. leadership at the Council has 
not improved the Council's functioning in this first year. At 
the same time, it has been shown, when the United States is 
engaged, we can make a difference, as in the Third Committee. 
As in the diplomacy that surrounded the recent elections to the 
second year of the Council the United States engaged very 
vigorously to thwart Belarus' bid to become a member of the 
Council--and it worked. Because the United States was engaged 
and enlisted allies.
    Unfortunately, the United States did not invest similar 
diplomatic energy, and try to thwart other not-qualified 
countries in their efforts to get onto the Council. Freedom 
House put out a report in April that said that Angola, Egypt, 
and Qatar, were among those candidate countries who were 
clearly not qualified to be members. And, while the United 
States worked energetically to thwart the bid by Belarus, 
nothing was done really, as far as we know, to thwart the bid 
by Egypt. And certainly, Egyptian human rights activists are 
dismayed that their government was elevated to the Human Rights 
Council. Nineteen human rights groups in Egypt had appealed to 
the United Nations not to overlook what they described as 
Egypt's ``consistent contempt for human rights.'' And, 
unfortunately, Egypt is now a member of the Council, and will 
probably do more damage than Belarus would have done, because 
Egypt is an influential regional power.
    You mentioned, Mr. Chairman, Secretary General Ban Ki-moon. 
We believe that he needs to be engaged, and encouraged to lead 
in this critical area. His statement on June 20, when he voiced 
regret that the Council had singled out Israel for repeated 
condemnation to the exclusion of addressing so many other 
urgent cases, was a good, important, straightforward statement.
    The rebuke that he received, just yesterday, in Geneva from 
the Pakistani Ambassador, speaking there on behalf of the 
Organization of the Islamic Conference, confirms that Secretary 
General Ban will need the support of the United States and 
other democracies to confront the threat to the Council 
represented by the OIC.
    The heightened effort to pervert the Council does not take 
place in isolation there. It is an integral part of a resurgent 
global rise in influence and confidence, by a motley collection 
of increasingly autocratic states--Russia, China, Saudi Arabia, 
Pakistan, Cuba--countries that do not have much in common, 
except a shared interest in diminishing the power of the 
Council, and eviscerating the language of the Universal 
Declaration on Human Rights.
    To walk away now from that battle, just as it is commencing 
in earnest, would be a remarkable declaration of failure for 
the country that is largely responsible for articulating the 
values, and establishing the institutions of the United 
Nations.
    The late Daniel Patrick Moynihan, before he became our 
Ambassador to the United Nations, and before he commenced his 
illustrious career here in the U.S. Senate, told us what to do 
when a democratic nation comes to be isolated in the world 
body. In 1975 he wrote, ``This is our circumstance, we are a 
minority. We are outvoted. This is neither an unprecedent, nor 
an intolerable situation. The question is: What do we make of 
it? So far we have made little, nothing, of what is, in fact, 
an opportunity. We go about saying that the world has changed; 
we toy with the idea of stopping it, and getting off. We think 
that, if only we are more reasonable, perhaps they will be more 
reasonable. But they do not grow more reasonable.''
    We need to mobilize the democracies of the world, of which
there are many more in the world than there were in 1975, and 
strengthen the democratic faction in the United Nations, and in 
the Human Rights Council.
    Thank you, sir.
    [The prepared statement of Mr. Melia follows:]

   Prepared Statement of Thomas O. Melia, Deputy Executive Director, 
                     Freedom House, Washington, DC

    Chairman Nelson, Senator Vitter, thank you for inviting Freedom 
House to testify today on the critical subject of the U.N. Human Rights 
Council, its shortcomings, and the prospects for reform.
    As you know, the U.N. Human Rights Council was created last year in 
an extraordinary response to the disgrace that the U.N. Human Rights 
Commission had become. Populated with envoys from Saudi Arabia, China, 
Cuba, Eritrea, and Sudan, the Commission was even chaired by Libya's 
Ambassador during the 2003 session. It had become a disgrace to the 
entire U.N. system. Kofi Annan and many others sought a fresh start.
    Freedom House has been focused on how the U.N. system defends and 
advances human rights virtually since our founding by Eleanor Roosevelt 
and Wendell Willkie as a bipartisan voice for informed American 
engagement in the world in support of human rights and democracy. You 
know that Eleanor Roosevelt was first chairperson of the U.N. Human 
Rights Commission, and in that capacity presided over the drafting of 
the Universal Declaration of Human Rights, which was adopted by the 
General Assembly in 1948. We at Freedom House come to this discussion, 
therefore, with an inherited predisposition to believe that an 
international order can be constructed based on norms of civilized 
behavior, including principally respect by governments for the 
fundamental rights articulated in the Universal Declaration of Human 
Rights; with the firm belief that the political security and economic 
interests of the United States would be enhanced in such a world; and 
with the realization that, practically speaking, this can only be done 
with strong leadership from the United States.
    During the months of negotiation to determine the structure of the 
new Council, we expressed a number of serious reservations about the 
lack of stringent membership requirements that might prevent the most 
notorious human rights abusers from gaining membership on the Council, 
as they had with the Commission. We did not disagree with the position 
of the Bush administration that the Council was thus flawed at its 
creation--a view that led the U.S. Government to cast one of just four 
votes against the enabling resolution in the U.N. General Assembly on 
March 15, 2006. Yet we also thought it possible that, with vigorous 
American diplomacy and concerted action by the democracies of the 
world, the new basis for election to the Council--in which decisions 
were taken out of the hands of the regional groups and placed in the 
U.N. General Assembly as a whole--could result in a credible body of 
states seriously interested in fulfilling the mandate of the Council. 
As the enabling resolution states, the Council--

          Shall be responsible for promoting universal respect for the 
        protection of all human rights and fundamental freedoms for 
        all, without distinction of any kind and in a fair and equal 
        manner; . . .
          The Council should address situations of violations of human 
        rights, including gross and systematic violations, and make 
        recommendations thereon.

    We urged the administration to reengage with the Council, 
notwithstanding its understandable reservations. As Freedom House 
Executive Director Jennifer Windsor testified before the House 
International Relations Committee last September, shortly after the 
Council had held its inaugural session: ``While we continue to have 
serious concerns, Freedom House believes that the potential for the 
Council's success is not yet lost. We believe that the U.S. Government 
and other democratic countries should make every effort to strengthen, 
not weaken, their engagement with the Council and to work together more 
effectively to ensure that the United Nations regains its leadership in 
protecting and advancing human rights and freedom.''
    Today, 10 months later, the Council has now concluded its first 
year of operations, the U.N. General Assembly has conducted elections 
for the second year and our assessment is that the Council does not at 
this point constitute an improvement over its disgraced predecessor. 
Our optimism has been tempered not only by the consistent inability of 
the Council to address serious human rights violations occurring around 
the world, but more importantly, by the recurring success of the 
nondemocracies in undermining the mandate of the body by stonewalling 
action on the most urgent situations, and by diverting energy and time 
of all the Member States to discussion of structural innovations 
intended to further hobble the Council. The dictatorships of the world 
take this Council as a serious threat, they work assiduously to thwart 
those who want it to succeed and, up to this moment, they are winning 
more often than the defenders of human rights are winning.
    Mr. Chairman, it matters who engages in the world, and on what 
issues, and how vigorously, especially when the diplomatic going gets 
tough. I am reminded of the passage from W.B. Yeats' poem, ``The Second 
Coming'':

Things fall apart; the centre cannot hold;
Mere anarchy is loosed upon the world,
The blood-dimmed tide is loosed, and everywhere
The ceremony of innocence is drowned;
The best lack all conviction, while the worst
Are full of passionate intensity.

The United States ought to be engaged on human rights with ``passionate 
intensity.''
    Last November, Freedom House issued a report card evaluating the 
body's efforts to address some of the most critical issues. The report 
also focused on the actions of members of the U.N. Democracy Caucus and 
the U.S. Government both of which need to step up to the plate if the 
Council is ever to succeed. Grades in the report card, though low, were 
still mixed. We noted that ``key processes determining the Council's 
future are still in formation, the track record is not promising.'' We 
have taken the opportunity today to update the report card.
    Naming and Shaming. The most important element of the former 
Commission, as of any multilateral human rights body, is its ability to 
identify and expose specific, urgent human rights abuses. The Council 
has several mechanisms--Special Rapporteurs, country-specific 
resolutions, and the new Universal Periodic Review--that allow it to 
``name and shame'' those countries committing egregious abuses against 
their citizens. Once such a diplomatic record is thus established, the 
United Nations itself or individual countries may take specific actions 
to isolate or punish offending states. In free societies, in 
particular, popular and political debate on how governments ought to 
react can be informed by such diplomatic documentation. However, this 
first year has shown that the Council is largely unwilling to use the 
tools at its disposal. Even more problematic is the fact that some 
members are actively trying to undermine the usefulness of these 
mechanisms, now and in the future.
    Special Rapporteurs. Country-specific ``Special Rapporteurs''--
independent individuals tasked with monitoring and reporting on human 
rights abuses in specific countries--had constituted one of the old 
Commission's only mechanisms that genuinely functioned to promote and 
protect human rights. The credible and accurate reports that they often 
provided are still one of the most vital components of an effective 
Council.
    In the final session of its first year, however, Council members 
proposed ending the mandates of 11 Special Rapporteurs--all of the 
country-specific Special Rapporteurs, save the one assigned to Israel. 
Ultimately, a compromise was reached between members of the European 
Union and those countries that wanted to do away with all of the 
Special Rapporteurs, allowing for the elimination of only two, those 
assigned to Cuba and Belarus. However, as only 4 of the 12 country-
specific Special Rapporteurs monitored the very worst human rights 
abusing countries in the world, the elimination of two of the four 
country-specific Special Rapporteurs inherited by the newly created 
Council is an enormous loss. It is appalling that this occurred in what 
was widely touted as a ``compromise measure,'' with only Canada's 
delegate dissenting, that the European and other democracies would 
decide that losing half of the existing stable of Special Rapporteurs 
was an acceptable outcome underscores how far the world's standards 
have fallen.
    Country-Specific Resolutions. In the Council's first year, country-
specific resolutions were passed addressing only two situations. 
Israel's behavior in the Occupied Territories and in Lebanon was 
sanctioned repeatedly: At least one resolution on the topic was passed 
at each of the Council's five sessions, and Israel was the principal 
subject of three out of the body's four special sessions. In fact, as 
Israel has now been added as one of the Council's ``permanent agenda 
items,'' many more resolutions censuring that country are sure to come. 
The distortion this represents, when one considers the range and scope 
of human rights problems in the world today, is breathtaking. To date, 
the only condemnatory resolutions adopted by the Council in its first 
and second years--11 of them now--have been directed at Israel.
    In contrast, addressing the genocidal human rights abuses occurring 
in the Darfur region of Sudan has been the subject of constant 
political maneuvering. Negotiations over wording between members of the 
European Union and the African group delayed passage of a resolution. 
Eventually, a weak initiative ``welcoming the cooperation established 
by the Government of the Sudan'' (as if there had been any such 
cooperation) was finally approved, and a high-level mission headed by 
Nobel Peace laureate Jody Williams was dispatched to the region. 
However, a hearing of the report was blocked by Sudan's allies on the 
Council, and only after international outcry was the report finally 
presented. Since then, the Council has convened a group to work with 
the Government of Sudan and assist in monitoring the human rights 
situation on the ground.
    However, no other country-specific resolutions were passed in the 
past year. None.

  <bullet> Not for Burma, where a wide range of human rights violations 
        against political activists, journalists, and members of ethnic 
        and religious minority groups continued unabated throughout the 
        year;
  <bullet> Not for Cuba, where the unauthorized assembly of more than 
        three persons is punishable by law with up to 3 months in 
        prison and a fine, and peaceful civic activists imprisoned 3 
        years ago languish in prison;
  <bullet> Not for North Korea, the country with perhaps the most 
        stunning systematic nationwide repression, a land where more 
        than 200,000 people are imprisoned in a vast gulag and 
        punishment against three generations of families is used to 
        respond to even trivial utterances seen as disloyal to Kim 
        Jong-Il;
  <bullet> Not for Uzbekistan, where the massacre at Andijon remains 
        unacknowledged and unexamined by a regime that has turned 
        traditional neighborhood organizations into an official system 
        of public surveillance of private discussion;
  <bullet> Not for Zimbabwe, where, this year, the government expanded 
        its crackdown on the country's few remaining independent media 
        outlets, escalated the physical assaults against peaceful 
        demonstrators against the gross mismanagement of the country; 
        and
  <bullet> Not for any of the situations described on the recent 
        Freedom House publication, ``The Worst of the Worst,'' which 
        describes the 20 worst places in the world in terms of civil 
        liberties and political rights.

    No member of the Council even proposed resolutions on these topics. 
All democratic diplomatic hands were apparently mobilized to manage the 
retreat from the underwhelming portfolio of the failed Commission. Nor 
was any discernable effort made to expand the frontier by creating 
additional Special Rapporteurs, given the largely successful resistance 
offered by Sudan regarding Darfur.
    Instead, in March the Council passed a resolution justifying 
suppression of unpopular speech. Under the guise of discouraging 
``defamation of religions,'' the resolution challenges freedom of 
expression, and gives rights to religions, rather than individuals. 
Many--too many--democratic countries voted for the resolution.
    Just as alarmingly, a number of countries have spoken out 
throughout the year against the very notion of country-specific 
resolutions, as if the most egregious human rights violations in the 
world were happening somehow outside the boundaries or beyond the 
control of the very governments that were often responsible for 
assaults on their own citizens.
    During the last week of the Council's first year, as a final 
package of institution-building mechanisms was being debated, China 
proposed a rule that would require that passage of any country-specific 
resolutions be contingent on a two-thirds majority of the Council. The 
initiative was never formally proposed as a resolution, yet by all 
accounts, it acquired considerable support among members and was 
thwarted only on the last day of the session.
    Intriguingly, another body, the U.N. General Assembly's Third 
Committee, was more successful than the Human Rights Council at 
condemning specific countries this past year. Composed of all 192 
Member States of the United Nations, the Committee passed resolutions 
in November sanctioning Belarus, Burma, Iran and North Korea for human 
rights violations. This means that we have now arrived at the curious 
place where the equilibrium on human rights standards--the collective 
understanding of what constitutes a situation grave enough to warrant 
public comment and condemnation--is lower in the Human Rights Council 
than in the United Nations at large.
    Universal Periodic Review. In lieu of stronger country-specific 
resolutions or an increased number of Special Rapporteurs, the 
Universal Periodic Review (UPR) was envisioned as a tool that could 
potentially highlight human rights abuses in every U.N. Member State, 
and thus provide a recurring opportunity in this global forum for 
discussion of solutions. Because the procedure has not yet been 
implemented, it is not yet clear how effective it will be. However, a 
number of elements that could have contributed to a stronger UPR were 
watered down prior to its final passage by the Council; the result is a 
procedure that stresses intergovernmental consensus and inclusiveness 
over rigorous standards and specificity.
    For instance, while Freedom House and other human rights 
organizations had pushed for a panel of independent experts to oversee 
this review process, most governments--including the United States, 
apparently had pressed for a panel composed of representatives from 
Member States' delegations who would conduct the reviews. The result is 
that the review will be conducted by three representatives of Member 
States, rather than by independent human rights experts. Of the 
documents used as a basis for the review, 20 pages of text can be 
submitted by the country in question, while the Office of the High 
Commissioner for Human Rights can submit 10 pages and ``other relevant 
stakeholders'' can provide another 10. Whether these stakeholders 
include NGOs based inside or outside the country is still unclear.
    The Role of Democratic Governments. Although 79 percent of Council 
members during its first year were members of the Community of 
Democracies (and this also includes members of the U.N. Democracy 
Caucus, created in 2004) they have never voted as a group in the 
Council. Today's hearing is not the forum for a discussion on the 
Community of Democracies per se (Freedom House has long been concerned 
that too many nondemocracies are included in this gathering of Foreign 
Ministers). But it should be clear to anyone who peruses the roster of 
states currently members of the Human Rights Council and examines the 
vote totals that led to their election by the General Assembly that (a) 
many democracies obviously voted to send conspicuous dictatorships to 
the Council; and (b) even so, there are enough democratic states on the 
Council that it should be able to muster a working majority of 
democracies to determine outcomes much of the time. Instead, Member 
States are far more likely to attach greater value to regional 
solidarity than to human rights considerations. This enables China and 
Russia, while suppressing the rights of Muslims in their own countries, 
to build alliances with the Organization of the Islamic Conference, 
with its reach into the Africa and Asia groups, to form a blocking 
majority. Important democracies such as India, South Africa, and Brazil 
and among others, have failed to exercise the leadership that the world 
needs from them now--and that would bolster their contentions that they 
belong among the world's leading powers as permanent members of the 
Security Council.
    Other countries, including some that do not lay claim to be 
regional or global leaders, have stood more unambiguously on the side 
of freedom. Look at the vote on the defamation resolution in March. 
While Guatemalans can be proud that theirs was the only one of eight 
Latin American countries to cast a vote for free expression, five 
others abstained, and--alarmingly--Mexico joined with Cuba to vote yes 
for suppression of free speech.
    Canada is deserving of special recognition as the only country that 
stood up during the final week of the Council's first year to decry the 
loss of Special Rapporteurs for Cuba and Belarus, as well as Israel's 
placement as a permanent agenda item. Canada was not, however, joined 
by other democracies, and the resolution containing these points 
passed, officially by consensus--notwithstanding the Canadian 
objection.
    The United States. U.S. Government officials have said that 
improving the Council is a priority, and a few key officials have 
worked hard to reach out to allies and promote higher standards at the 
Council. Worthy of special recognition are the concerted efforts of 
then-Deputy Assistant Secretary of State Mark Lagon, recently confirmed 
by the Senate as Ambassador-at-Large and Director of the Office to 
Monitor and Combat Trafficking in Persons. He worked closely with 
Assistant Secretary Kristen Silverberg and others in the Department, 
such as Deputy Assistant Secretary Erica Barks-Ruggles in DRL, and 
energetically strove for a stronger and more effective Council.
    Yet, overall, one is left to wonder if the U.S. Government truly 
did all that it could to improve the Council. There appear to have been 
several occasions when the administration passed up opportunities to 
make a difference. For example, the U.S. Government chose not to 
present itself as a candidate for a seat on the Council last year, and 
did not send Secretary of State Condoleezza Rice to speak at the high-
level opening of the Council's first session, though more than 100 
countries dispatched heads of state or Foreign Ministers to the event. 
Although Freedom House urged the Bush administration to appoint a 
special envoy to the Council, whose only job would be to engage 
diplomats in Geneva--and, importantly, in foreign capitals around the 
world--to strengthen human rights standards, the administration 
declined. Earlier this year, the United States decided again this year 
not to run for a seat on the Council.
    The absence of U.S. leadership at the Council has clearly not 
improved the body's functioning. On the contrary, those times that the 
United States has pushed for higher standards for human rights at the 
United Nations over the past year have shown that our engagement can 
make the difference. For example, the United States actively pressed 
for passage of the resolutions condemning Burma, Belarus, Iran, and 
North Korea in the General Assembly's Third Committee last November. 
The effort was successful, in large part because of U.S. diplomatic 
leadership.
    In May, when the membership of Belarus as one of the two new 
Eastern European members was emerging as a real possibility--because 
other countries were not willing to be candidates--the United States 
joined in a concerted diplomatic effort to encourage Bosnia and 
Herzegovina to run for a seat, as well. In the final week prior to 
elections, Bosnia officially declared its candidacy, and Belarus was 
ultimately defeated.
    Unfortunately, the U.S. Government did not invest comparable 
diplomatic energy in the elections that took place in the African or 
Asian group. Interestingly, the nondemocratic candidates for election 
there, ones that Freedom House had assessed, along with Belarus, to 
``not qualified'' for membership on the Council--Angola, Egypt, and 
Qatar--are countries with whom the United States has, well, more 
complicated relations than it does with Belarus. The United States 
worked energetically to thwart the bid by Belarus, though one can make 
the case that Egypt will be more damaging to the work of the Council 
because it is more influential. Certainly, Egyptians are dismayed by 
their government's elevation to the Council. Nineteen Egyptian human 
rights groups had appealed to the United Nations not to overlook what 
they described as Egypt's ``contempt for human rights, since Egyptian 
history is replete with grave human rights violations, carried out on a 
large scale and over long periods of time.'' The Egyptian Government, 
meanwhile, boasted that Egypt's selection to the Council is proof of 
the esteem and respect in which Egypt is held by the international 
community. And, unfortunately, these events lend credence to the 
impression that the United States is willing to utilize its diplomatic 
prowess to oppose hostile states of little strategic consequence, but 
not to exercise its influence with others who equally do not belong on 
the Council.
    It is also not clear that the U.S. Government brings other 
countries' performance at the Council into our bilateral relationships. 
Are Algeria and Egypt challenged in Algiers and Cairo for their 
behavior at the Council? How are South Africa or India enlisted to step 
up to their responsibilities as key Third World democracies? How many 
performance evaluations of U.S. ambassadors or political officers, or 
embassy mission plans, will include a reference to the U.N. voting 
records of the countries to which they are assigned? The most important 
work in this regard is not necessarily to be done in those countries 
that are the main human rights abusers; it is to be done in those 
democratic states that have yet to incorporate into their own diplomacy 
a principled engagement on these issues. The U.S. Government can work 
much harder than it currently does to energize our allies and partners 
to promote human rights in Geneva.
    The United States should be congratulated for amply funding the 
Office of the High Commissioner for Human Rights. However, though the 
High Commissioner's office provides critical technical assistance for 
human rights work around the world, it is not a substitute for the 
Human Rights Council.
    Related U.N. Institutions. The High Commissioner for Human Rights, 
Louise Arbour, has recently sought to distance her office from the 
Council and to downplay expectations that the U.N.'s human rights 
Secretariat has much ability to influence events at the Council. The 
Council, she recently wrote, ``. . . is a political body made up of its 
Member States and its decisions and actions are the result of 
negotiations among those members. The OHCHR provides Secretariat 
support to the Council but does not in any way determine the Council's 
decisions, resolution, recommendations, or actions.'' Coming from the 
United Nations's most prominent institutional champion of human rights, 
this is dismaying. The world needs her, a distinguished international 
jurist of some renown, to speak clearly on these issues and to make 
clear that she knows when the Council has strayed. It is also 
interesting that she has had rather little interaction with anyone in 
the U.S. Government, other than the Ambassador to the United Nations in 
Geneva. What are we to infer from the fact that Ms. Arbour just made 
her first visit to the United States, and that our Government has 
reached out so little to her?
    U.N. Secretary General Ban Ki-moon needs to be engaged and 
encouraged to lead in this critical area, utilizing the immense respect 
of his office and, as importantly, utilizing his private encounters 
with governments at the highest levels. His work already on Darfur 
shows that he has a clear sense of the world body's responsibility to 
act on grievous situations. His statement on June 20, when he voiced 
regret that the Council has singled out Israel for repeated 
condemnation to the exclusion of addressing other urgent cases, was a 
good one. The rebuke he received just yesterday in Geneva, from the 
Pakistani Ambassador speaking on behalf of the Organization of the 
Islamic Conference, confirms that Secretary General Ban will need the 
support of the United States and the other democracies to confront the 
threat to the Council represented by the OIC. This, too, needs to be a 
plank in the American diplomatic platform--encouragement and 
facilitation for the Secretary General to strengthen the Council.
    The Future. The Human Rights Council is clearly a flawed 
institution, though it is less clear what might be the best way to fix 
it. The year just begun at the Council is the first ``normal'' year for 
the body, now that institutions and mechanisms have been established. 
Standing by, watching and waiting for the Council to fail, in hopes 
that the international community will invent something better when the 
present Council's mandate expires in a few years--apparently the 
preferred approach of some people in the current administration--is 
untenable. Jumping in at the last moment to suggest changes will have 
very little effect, as the United States discovered last year in the 
negotiations about the present Council. Given the ongoing human rights 
abuses that are occurring in the world, and the tremendous damage that 
continuation of the current situation will have on the credibility of 
the entire United Nations, it is time for reinvigorated diplomacy 
rather than retreat. If the United States genuinely wants a better 
Council in 4 years, it must be more engaged now in a sustained effort 
to influence other countries and to work with others to develop 
meaningful reforms.
    This is a challenge worthy of the best diplomatic talent of the 
United States of America, working in tandem with an attentive, 
informed, and engaged Congress, which this hearing today suggests it 
is. This will be difficult to do, not least because our Government 
seems not to have grasped the enormity of the challenge. As daunting as 
it appears to be, it will only become more so in the near term.
    The heightened effort to pervert the Council is not taking place in 
isolation. It is an integral part of a resurgent global rise in 
influence and confidence by a motley collection of increasingly 
autocratic states. Increasingly, the only pluralism reflected in many 
governments around the world is in the diversity of despotism they are 
developing. Russia, China, Saudi Arabia, Pakistan, Cuba. They do not 
have much in common except a shared interest in diminishing the power 
of the Council, the meaning of the U.N. Charter and eviscerating the 
language of the Universal Declaration on Human Rights. To walk away now 
from the battle, just as it is commencing in earnest, would be a 
remarkable declaration of failure for the country that is largely 
responsible for articulating the values and establishing the 
institutions of the United Nations.
    Eleanor Roosevelt would not have been surprised at what is 
happening now in the Human Rights Council. She anticipated it. In Paris 
at the Sorbonne, in September 1948, she said: ``We must not be deluded 
by the efforts of the forces of reaction to prostitute the great words 
of our free tradition and thereby to confuse the struggle. Democracy, 
freedom, human rights have come to have a definite meaning to the 
people of the world which we must not allow any nation to so change 
that they are made synonymous with suppression and dictatorship.''
    Almost three decades later, and three decades ago, at a very low 
point of American prestige and influence in the world (not terribly 
dissimilar to the present moment in some ways), sentiment for 
withdrawal from the United Nations was mounting, as the United States 
found itself increasingly outmaneuvered in the United Nations. The late 
Daniel Patrick Moynihan--before he became our Ambassador to the United 
Nations and before he commenced his illustrious career in the U.S. 
Senate--told us what to do when a democratic nation comes to be 
isolated in the world body. Writing in Commentary magazine, in March 
1975, in an article entitled ``The United States in Opposition,'' he 
declared: ``This is our circumstance. We are a minority. We are out-
voted. This is neither an unprecedented nor an intolerable situation. 
The question is what do we make of it. So far we have made little--
nothing--of what is in fact an opportunity. We go about dazed that the 
world has changed. We toy with the idea of stopping it and getting off. 
We rebound with the thought that if only we are more reasonable perhaps 
`they' will be . . . But `they' do not grow reasonable. . . .''
    He told us then, and soon thereafter he showed us how, to take the 
United Nations seriously and to use our voice to tell the truth and to 
seek to persuade others to join ranks with us. During the three decades 
since, there has been a growing consensus among democratic states that 
protecting human rights is a vital shared interest of humanity--and 
that it is possible to band together and to do something about it. 
There are more democratic states in the world than there were in 1975--
a lot more.
    Yet there is hesitation and confusion about whether to mount a 
serious diplomatic campaign. This hesitation is misplaced. Democratic 
governments have an obligation to speak up for those who are being 
silenced, jailed, and in some cases murdered by their own governments. 
Current conditions may demand new strategies, but on the universal 
value of freedom, there should be no second thoughts, no apologies, and 
no hesitation.
    The United States cannot afford to ignore--nor to lose--the debate 
on freedom that is currently occurring in and around the Human Rights 
Council. We need to take it seriously and be more strategic in 
combating the trend. Human rights activists in many of these countries 
look to the Council to give voice to, and defend, their concerns; they 
believe that what happens in Geneva matters, and so should we. More 
energetic high-level diplomacy on the several fronts I have described 
is necessary, not less.

    Senator Bill Nelson. Ms. Hicks, we're going to have to 
suspend, there is a vote in progress, we're down to 5 minutes 
to vote. So, I'm going to go run and vote; I'll be right back. 
The meeting will stand in recess until the call of the Chair.
    [Recess.]
    Senator Bill Nelson. The committee will resume.
    Ms. Hicks.

   STATEMENT OF PEGGY HICKS, GLOBAL ADVOCACY DIRECTOR, HUMAN 
                   RIGHTS WATCH, NEW YORK, NY

    Ms. Hicks. Thank you, Mr. Chairman, for inviting us to 
testify, and for your attention to the Human Rights Council.
    As has already been emphasized, the Human Rights Council in 
its first year, failed to act on human rights crises in a 
variety of places, ended the mandates of experts on Belarus and 
Cuba, and rolled back its consideration of Iran and Uzbekistan.
    At the same time, it focused disproportionately on Israel, 
and did so in a way that was likely to be ineffective, because 
it fails to look comprehensively at the situation, including 
the responsibilities of Palestinian authorities, and armed 
groups.
    On these points, all of us agree. But on the key questions 
of why the Council has disappointed, and to your question, Mr. 
Chairman, of whether it's headed in the right direction, there 
are many different opinions.
    In addition to its unimpressive membership, which we've 
already discussed, we believe that two factors help explain the 
Council's weak performance.
    Mr. Chairman, this committee is well aware of the larger 
problems the United States faces in advancing its interests 
across the globe today, and Senator Menendez has referred to 
them as well. The war in Iraq, Guantanamo, secret prisons, 
torture, and unlawful rendition have reverberated worldwide. 
The U.S. loss of moral authority and influence has had an 
impact on every issue the U.S. pursues, in every forum, and the 
Human Rights Council is no different.
    The Organization of the Islamic Conference has been 
successful in harnessing ill-will toward Bush administration 
policies, to pursue an agenda aimed more at protecting than 
condemning human rights abusers. States that might have been 
expected to play a strong human rights role, like South Africa, 
have found it convenient to play to tensions between the 
developed, and developing world. The absence of the United 
States from the Council's membership has created a leadership 
imbalance that the European Union has been unable to remedy.
    The Council's shortcomings in its first year also reflect 
the poor performance of human rights supporters. States 
friendly to human rights routinely fail to invest the political 
capital and resources necessary to make the Council work. 
Senator Menendez asked Assistant Secretary Silverburg regarding 
this point, and we looked at the extent to which the United 
States has failed to extend full, high-level, sustained 
advocacy, and that's not just a problem with the United States, 
but within other human rights supporters, as well.
    Human Rights Watch and other NGOs called for a special 
envoy to be appointed to demonstrate a real commitment to 
pushing these issues forward, and to do so in a sustained way--
that simply didn't happen.
    Given the Council's record so far, what hope is there of 
continuing engagement will improve the picture?
    Mr. Chairman, the Council may not be moving in the right 
direction yet, but getting the Council on the right track can 
be done. Beginning this year, the Council will scrutinize all 
states human rights records in the new Universal Periodic 
Review.
    It is exactly because this process will counter the 
selectivity that discredited the Commission, and has already 
damaged the Council, that this process can have a real impact 
on human rights.
    In addition, the Council's systems of human rights experts, 
including ones who will continue to work on Burma and North 
Korea, has been maintained, and will continue to put pressure 
on governments to respond to their findings and 
recommendations. These experts have helped develop indicators, 
that should help hold the Sudanese Government to account for 
ongoing abuses in Darfur.
    With support from states such as the United States, this 
system of human rights experts can be maintained and 
strengthened. In looking at what the Council has done, we need 
to look at results, not just rhetoric.
    In looking, for example, at the Sudan and Darfur, a 
question that you raised, Mr. Chairman, Assistant Secretary 
Silverberg pointed to the fact that there have been three so-
called ``weak'' or ``feeble'' resolutions on Darfur. Of course, 
it's always nice to have a condemnatory resolution. But I think 
we, as human rights supporters, need to look at what is the 
impact of resolutions on the ground. The three resolutions on 
Darfur in Sudan led to a fact-finding mission headed by a Nobel 
Laureate that resulted in a thorough and compelling report on 
abuses of human rights in Darfur, including addressing, in 
detail, all of the issues you raised, Mr. Chairman, and those 
resolutions also created an experts group that is engaged, 
right now, in hands-on work to address violations in Darfur.
    Counting the lives saved due to the work of institutions 
like the Human Rights Council is never easy, but one example 
provides hope. In 2005, the possibility that the Commission on 
Human Rights might adopt a resolution on Nepal, helped convince 
the Nepalese Government to agree to a U.N. human rights 
monitoring mission, a step that contributed to a dramatic 
improvement in human rights. Using that model, we are pushing 
the Council to take up the situation of Sri Lanka this year, 
where a monitoring mission could save lives, now.
    In deciding the Council's fate, we need to consider our 
options. We've already heard a bit about the work that could be 
done in the Third Committee, but that simply is no substitute 
for the work that a year-round body, like the Council, could 
do.
    Election of the Council's members by universal vote also 
adds to the potential legitimacy and effectiveness of the 
institution, and allows us a lever to improve the membership of 
the Council, as well.
    Given these facts, deciding to cut off funding for the 
Human Rights Council may succeed in signaling dismay over the 
Council's record, but it does nothing to help human rights 
victims. And, I would say, we disagree with the Assistant 
Secretary's view that this would not undermine the work of the 
United States at the Council.
    But working for a better Council can pay off, as it did 
this May in the crucial vote on Belarus, which my colleague has 
already described. Mr. Chairman, proponents of human rights in 
the U.S. Congress should continue to express their 
dissatisfaction with the Council's shortcomings.
    But those complaints should not be the end of the story. 
Writing off the Council, with no reasonable alternative in 
sight, would send a devastating signal to human rights victims 
throughout the world.
    This human rights body is, as has been said, a political 
body made up of States, and its success or failure depends on 
how those States perform. Instead of blaming the Council, the 
United States should hold bad performers accountable, including 
allies like India, Pakistan, and South Africa, and push for 
action on priority issues, such as Sri Lanka, where the Council 
could make a real difference in the coming year.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Hicks follows:]

  Prepared Statement of Peggy Hicks, Global Advocacy Director, Human 
                       Rights Watch, New York, NY

    Mr. Chairman, thank you very much for inviting me to testify at 
this hearing and for your attention to the U.N. Human Rights Council.
    In its first year, the Human Rights Council has failed to take 
action regarding countries facing human rights crises such as Burma, 
Colombia, Somalia, Turkmenistan, and Zimbabwe, ended the mandates of 
human rights experts on Belarus and Cuba, and rolled back its 
consideration of the deteriorating situations in Iran and Uzbekistan. 
At the same time, it focused disproportionately on Israel's human 
rights record and worse still, did so in a manner doomed to be 
ineffective because it failed to look comprehensively at the situation, 
including the responsibilities and roles of Palestinian authorities and 
armed groups. On these points, all of those testifying before you today 
are likely to agree. But on the two crucial questions of why the 
Council has disappointed, and what are the prospects for improving its 
performance, opinions differ widely. I hope to shed some light on those 
points in this testimony.
    Of course, the Council's troubling performance was in some ways 
unsurprising. The United States, which was one of only four states that 
voted against the Council's creation, did so because the General 
Assembly resolution creating the Council contained insufficient 
guarantees to keep states with poor human rights records off the body. 
The United States can hardly play the hero in this drama however. Under 
then-U.N. Ambassador John Bolton, the United States managed both to 
neglect the negotiations to establish the Council and to push pet 
proposals that detracted from the goal of building a stronger body. The 
United States undermined its demands for rigorous membership criteria, 
for instance, by its own failure to ratify core human rights treaties, 
such as the Convention on the Rights of the Child. And the U.S. push 
for a smaller council backfired dramatically when reducing the body's 
size led to a redistribution of seats that took seats away from the 
regional groups most friendly to human rights (``Western Europe and 
Others'' and ``Latin America and the Caribbean'').
    But the Council's membership is only part of the story. By most 
measures, the percentage of states in this new body that can be 
expected to support human rights is slightly improved. The number of 
Council members counted by Freedom House as ``free'' increased from 45 
percent of the Commission to 55 percent of the Council; the number of 
members of the Community of Democracies increased from 62 percent to 76 
percent. Yet human rights supporting states in the Council have clearly 
been on the defensive, and have been able to successfully push for 
action on only one country situation--Sudan's abuses in Darfur--in the 
past year. Two other important factors help explain the Council's weak 
performance.
    The Council's failures reflect the disturbing state of the global 
political environment. The war in Iraq, Guantanamo, secret prisons, 
torture and unlawful rendition have reverberated worldwide, including 
at the Human Rights Council.
    Mr. Chairman, this committee is well aware of the larger problems 
the United States faces in advancing its interests across the globe 
today. The U.S. loss of moral authority and influence has had an impact 
on every issue the United States pursues in every forum, and the Human 
Rights Council is no different.
    The Organization of the Islamic Conference (OIC), the only active 
cross-regional coalition at the Council, has been successful in 
harnessing ill-will toward Bush administration policies to pursue an 
agenda aimed more at protecting than condemning human rights abusers. 
The divide between the ``northern'' developed states and the 
``southern'' developing world has never been greater, and infects all 
policy debates within the Council. States that might have been expected 
to push a strong human rights agenda at the Council, like South Africa, 
have found it convenient to play to those tensions, and have refused to 
take even small steps that could be seen as criticizing another 
developing country. While the United States has played a relatively 
active role as an observer at the Council, the absence of the United 
States from the Council's membership has created a leadership imbalance 
that the European Union has been unable to remedy.
    The Council's shortcomings in its first year also reflect the poor 
performance of human rights supporters. Despite expressing their 
commitment to building a strong Council, such states routinely failed 
to invest the political capital and resources necessary to make that 
goal a reality. Making the Council a priority would have meant 
bolstering the staff of Geneva missions which were ill-equipped to deal 
with a body that now meets year-round and had a dual-track agenda 
involving both institution-building and its regular business, as well 
as appointing senior envoys who could engage in an effective and 
sustained manner in capitals.
    Given the Council's weak record so far, what hope is there that 
continuing engagement will improve the picture?
    Mr. Chairman, despite the international political landscape and the 
limitations inherent in any intergovernmental body such as the Human 
Rights Council, intensified engagement by human rights supporters in 
the Council could still make a difference. Beginning this year, the 
Council will scrutinize for the first time the human rights situations 
in all U.N. Member States through the new Universal Periodic Review. 
This process is the greatest innovation in the Council, and will 
counter the selectivity that discredited the Commission on Human Rights 
and has already damaged the Council. Of course, some states have 
already revealed that they would prefer a whitewash to an effective 
review. But this review provides an unprecedented opportunity for 
public scrutiny of states' human rights records, which could be a 
valuable lever to encourage governments to take concrete steps on human 
rights abuses, if the process is properly supported.
    In addition, the human rights experts appointed by the Council to 
address both thematic and country situations could also push the 
Council forward in the coming year. The Council has for the first time 
afforded these experts a real opportunity to present their findings and 
recommendations, a step that increases the pressure upon governments to 
respond. These experts have also come together to address urgent 
issues--including Darfur, where an expert group has developed 
indicators that should help hold the Sudanese Government to account for 
ongoing abuses. But the Council's human rights experts face continuing 
attacks from states with poor human rights records, a testament to the 
fact that the experts are indeed seen as a threat. Those states 
succeeded in ending the mandates for experts on Cuba and Belarus, but 
failed in their efforts to eliminate the system of country experts 
altogether. Without continuing engagement by human rights supporters, 
these experts face threats to their independence and existence. With 
support from states such as the United States, this system of human 
rights experts can be maintained and strengthened.
    States do not change their abusive practices lightly, and when they 
do they rarely acknowledge that they are responding to pressure from 
outside. Counting the lives that have been saved or the abuses that 
have been ended due to the work of an institution like the Human Rights 
Council will never be easy. But one example from the Council's 
predecessor, the Commission on Human Rights, provides hope that the 
Council could have such an impact in the coming year. In 2005, the 
possibility that the Commission would adopt a resolution on Nepal led 
the Nepalese government to agree to deployment of a U.N. human rights 
monitoring mission, a step that contributed to a dramatic improvement 
in the human rights situation in that country.
    Today, organizations like Human Rights Watch are pushing the Human 
Rights Council to take up the situation in Sri Lanka, where we believe 
a human rights monitoring mission could make a real difference. In the 
Council's first year, the situation in Sri Lanka took a backseat to 
reaching agreement on a package of measures on the Council's working 
methods and agenda. In the coming year, states that are committed to 
human rights have the opportunity to identify a limited number of 
priorities, including Sri Lanka, where engagement by the Council could 
save lives.
    The Council's detractors have been vocal in identifying its many 
shortcomings. What is missing from those critiques, however, is an 
analysis of the alternatives. The Council is an intergovernmental body 
that is not surprisingly subject to all the flaws inherent in 
policymaking by a group of states with disparate interests and agendas. 
In deciding about the Council's fate, we need to be realistic about the 
options, if we agree that some sort of international human rights body 
is useful. The advantage of the Human Rights Council is that it 
represents all regions of the world and allows states to engage peer-
to-peer, including with human rights abusers. Election of the Council's 
members by a universal vote adds to the Council's legitimacy, and hence 
to its potential for effectiveness. An institution made up 
overwhelmingly of northern, developed countries would be more likely to 
adopt resolutions on human rights abuses, but would be substantially 
less able to influence governments perpetrating human rights abuses and 
stop those violations from happening.
    The only other institution that could leverage the condemnation of 
peers to address human rights abuses is the U.N. General Assembly. But 
the General Assembly hardly presents an appealing alternative. The 
General Assembly suffers from the same shortcomings as constraints as 
the Human Rights Council, and its record gives little hope that it 
would be more willing to take action on human rights abuses than the 
Council. The Council's membership can be improved by intensified 
efforts in yearly elections, while the General Assembly's universal 
membership offers no such prospect. Giving the General Assembly 
exclusive jurisdiction over human rights issues would mean eliminating 
the Council's system of human rights experts, and abandoning the 
process of universal periodic review before it has begun. The General 
Assembly would be able to devote only a fraction of the time and 
resources to human rights that a specialized body meeting year round 
can.
    Given these facts, deciding to cut off funding for the Human Rights 
Council may succeed in signaling dismay over the Council's record, but 
does nothing to help human rights victims. If the United States truly 
wants a stronger human rights body, it should stop distancing itself 
from the Council and instead work harder to improve this new body. Such 
efforts can pay off.
    This May, Belarus--a state with an appalling human rights record--
failed in its bid to become a Council member, largely because of a 
determined campaign by a few states, including the United States, and a 
group of NGOs, including Human Rights Watch. Yet in the same elections, 
only two candidates competed for Latin America's two open seats: 
Bolivia and Nicaragua. Surely the United States has the ability to 
encourage stronger human rights partners from this region to contend 
for Council membership. The Africa group again insisted on putting 
forward a ``clean slate'' with only as many candidates as the number of 
seats available, composed of Angola, Egypt, Madagascar, and South 
Africa. If the United States cannot convince its allies in Africa to 
stop this practice, it should at least be able to encourage human 
rights supporters in Africa to insist on a better slate of candidates.
    The Human Rights Council is a political body made up of states, and 
its success or failure depends on how those states perform. Instead of 
holding the Council itself responsible for its disappointing first 
year, the United States should consider directing its attention to 
allies like South Africa, India, and Pakistan which played leading 
roles in pushing the Council onto the wrong track (and which voted in 
favor of every resolution adopted by the Council on Israel).
    Mr. Chairman, proponents of human rights in the U.S. Congress 
should continue to express their dissatisfaction with the Council's 
shortcomings. But those complaints should not be the end of the story. 
Writing off the Human Rights Council with no reasonable alternative in 
sight would send a devastating signal to human rights victims 
throughout the world. Instead, human rights supporters should focus 
their attention on holding bad performers at the Council accountable, 
and pushing for action on priority issues such as Sri Lanka.

    Senator Bill Nelson. Thank you, Ms. Hicks.
    Mr. Schaefer.

     STATEMENT OF BRETT D. SCHAEFER, JAY KINGHAM FELLOW IN 
  INTERNATIONAL REGULATORY AFFAIRS, THE HERITAGE FOUNDATION, 
                         WASHINGTON, DC

    Mr. Schaefer. Thank you.
    Mr. Chairman, thank you for providing me with the 
opportunity to come and testify this afternoon.
    You have asked the panelists today to give their assessment 
of the prospects for reforming the U.N. Human Rights Council. 
The very question is a telling indictment of how difficult it 
is to achieve reform within the United Nations system. The 
Council is actually the disappointing result of a reform 
process. Only 1 year ago the General Assembly passed a 
resolution creating the Council to replace the discredited U.N. 
Commission on Human Rights.
    After the U.N. General Assembly passed that resolution, 
Council supporters like U.N. High Commissioner for Human Rights 
Louise Arbour were quick to declare that the new body 
represented a ``dawn of a new era,'' in promoting human rights 
at the United Nations. Perhaps they should have been a little 
more cautious, considering that well-known human rights 
abusers, Burma, China, Cuba, Sudan, Syria, Zimbabwe, and 
others, all voted in favor of the new Council. The United 
States was one of four countries to vote against the 
resolution. It cast its vote out of concern that the new 
Council would lack the safeguards against the problems that 
afflicted the Commission. Looking back at the deplorable 
performance of the Council in its first year, the concern has 
proven to be very well-founded.
    The election process for the new Council resulted in only 
minor improvement in the quality of Council membership, over 
the discredited Commission. Some countries did decide not to 
run for election, but a number of states with dismal human 
rights records ran and won seats in 2006, including Algeria, 
Cuba, China, Pakistan, Saudi Arabia, and Russia.
    The 2007 election actually saw a decline in the quality of 
membership in the Council from 2006. The only significant 
victory was blocking Belarus from winning a seat and that was 
only accomplished due to extensive efforts by the United States 
and human rights groups to persuade Bosnia and Herzegovina to 
run. The United States and these groups cannot apply similar 
pressure in every single instance when human rights abusers run 
for a seat on the Council. There are simply too many.
    The small victory of keeping Belarus off the Council, was 
overshadowed by the election of Angola, Egypt, Qatar, and 
Bolivia--all states with dismal human rights records. Worse, we 
have seen a return to the practice of regions presenting clean 
slates for elections to the Council, by only offering as many 
candidates as there are open seats. This undermines the purpose 
of having the General Assembly elect members to the Council in 
the first place.
    In its first year, the Council, just like the discredited 
Commission, has exhibited an obsessive discriminatory focus on 
Israel while ignoring far worse human rights abuses around the 
world. In its first year the Council has held 3 special 
sessions focusing on Israel, and passed 10 harsh condemnatory 
resolutions and 4 decisions focusing on Israel. Moreover, 
Israel is singled out as the only country subject to a 
permanent agenda item.
    By contrast, the Council has held only one special session 
on Sudan and the issue of Darfur--widely considered the most 
serious human rights crisis in the world, involving the 
genocide of up to, of at least 200,000 individuals. The Council 
passed only one soft, noncondemnatory resolution and four mild 
decisions expressing ``concern'' about the situation, and 
failing to condemn the Sudanese Government. The Council even 
thanked Sudan for its cooperation, even though it denied access 
to Darfur by the very study group sent there by the Council.
    The Council has not passed a single resolution condemning 
human rights abuses in 19 of the 20 Worst of the Worst--the 
worst repressive human rights situations as identified by 
Freedom House--as mentioned earlier in the panel.
    Sadly, the Council has done even worse than ignore human 
rights abuses. It's ended existing scrutiny of human rights 
practices inherited from the Commission. It has discontinued 
consideration of human rights situations in Iran and Uzbekistan 
under the confidential 1503 procedures. The Council eliminated 
experts focused on Belarus and Cuba, despite extensive evidence 
of ongoing violations. And many countries plainly hope to 
eliminate all country specific experts in the near future, with 
the notable exception of Israel, again singling that country 
out.
    The Council has also adopted new rules and procedures, 
including a new code of conduct to pressure, influence, and 
intimidate independent experts. Under the new procedures, a 
committee appointed by the Council will appoint these experts 
from a roster of precleared qualified candidates. Restrictions 
under the code of conduct offer ample opportunities for 
countries to dispute, block, and otherwise criticize reports by 
the experts.
    The new universal periodic review will assess human rights 
practices in all Member States, a much-heralded improvement 
over the Commission. However, the proposed procedures for the 
review are very weak and virtually assure a Milquetoast 
outcome. The review for every country, whether it's Sweden or 
Sudan, is limited to 3 hours. The review will be a country-led 
process in which the country--``the country under review will 
have, shall be fully involved in the outcome,'' and requires 
the review to take, ``into account the level of development and 
specificities of the countries.'' Input from nongovernmental 
organizations will be minimal and moreover, the reviews will 
only occur every 4 years.
    As summarized by the U.S. Department of State, these 
institution-building procedures are seriously flawed and make 
the problems of the Council even worse. Quite simply, the 
actions of the Council are not worthy of an organization 
considered to be the world's premier human rights body. It has 
continued the worst aspects of the Commission and has become a 
platform for human rights abusers to deflect criticism rather 
than holding them to account.
    The United States chose not to run for a seat on the 
Council in 2006 and in 2007. This was the right decision. 
Winning a seat on the Council would not necessarily give the 
United States a greater voice or influence. Any U.N. member can 
comment on and speak to issues before the Council and the 
United States has frequently expressed its support or 
opposition to various resolutions and decisions. Because 
membership is based on geographic representation, even if the 
United States won a seat on the Council, it would simply 
displace one of the seven countries representing Western Europe 
and other states in that particular region, which already 
largely vote as the United States would vote.
    In numerous votes over the past year, the Council has 
adopted resolutions over the objection of 11 or 12 nations. 
U.S. membership on the Council would not change that situation 
at all. The gain from the United States being on the Council 
would be marginal at best. Until the Council approves, the 
United States should not lend its credibility to the flawed 
body by seeking a seat.
    The Council could, potentially, improve if members of the 
Council and the General Assembly decide to support strong 
resolutions or elect credible members to the Council. 
Unfortunately, the actions of the Council over the past year 
indicate that most members of the Council and in the General 
Assembly do not care to support a stronger more effective 
Council. On the contrary, they are perfectly happy with the 
dreadful record of the Council over the past year and oppose 
reform. The United States and other states that want to improve 
the Council simply don't have the votes to force change in the 
face of this resistance.
    In my opinion, the Council will continue to hinder rather 
than help protect and advance human rights.
    In closing, I want to congratulate the House of 
Representatives and the Senate Foreign Relations Committee for 
expressing their displeasure with the Council, by supporting 
legislation to withhold U.S. funding. While this action will 
have little direct impact on the budget of the Council and the 
behavior of the Council, it sends a powerful signal of 
displeasure.
    This concludes my oral statement, Mr. Chairman, and I look 
forward to your questions.
    Thank you.
    [The prepared statement of Mr. Schaefer follows:]

    Prepared Statement of Brett D. Schaefer, Jay Kingham Fellow in 
  International Regulatory Affairs, the Margaret Thatcher Center for 
            Freedom, the Heritage Foundation, Washington, DC

    Mr. Chairman, thank you for providing me with the opportunity to 
testify on how the new United Nations Human Rights Council (HRC) has 
performed in its first year and the prospects for reform. With 
permission, I would like my full written statement submitted for the 
record.
    Since the birth of the United Nations, protecting and advancing 
fundamental human rights has been one of the organization's primary 
objectives. The drafters of the U.N. Charter included a pledge by 
Member States ``to reaffirm faith in fundamental human rights, in the 
dignity and worth of the human person, in the equal rights of men and 
women.'' \1\ U.N. treaties and conventions, such as the Universal 
Declaration on Human Rights, which the General Assembly passed in 1948, 
form the core of international standards for human rights.
---------------------------------------------------------------------------
    \1\ Charter of the United Nations, preamble, at www.un.org/aboutun/
charter/index.html (May 24, 2007)
---------------------------------------------------------------------------
    Yet the U.N.'s recent record in promoting fundamental human rights 
is riddled with failure and inaction. For nearly six decades, the U.N. 
Commission on Human Rights (CHR) epitomized this failure as the premier 
U.N. human rights body charged with reviewing the human rights 
performance of states and promoting human rights around the world.\2\ 
Sadly, the Commission devolved into a feckless organization that human 
rights abusers used to block criticism and a forum for attacks on 
Israel.\3\ The Commission's disrepute grew so great that even former 
U.N. Secretary General Kofi Annan acknowledged, ``We have reached a 
point at which the Commission's declining credibility has cast a shadow 
on the reputation of the United Nations system as a whole, and where 
piecemeal reforms will not be enough.'' \4\
---------------------------------------------------------------------------
    \2\ United Nations, ``UN in Brief,'' chap. 3, at www.un.org/
Overview/uninbrief/chapter3_
humanrights.html (May 24, 2007).
    \3\ See Brett D. Schaefer, ``The United Nations Human Rights 
Council: Repeating Past Mistakes,'' Heritage Foundation Lecture No. 
964, September 19, 2006, at www.heritage.org/Research/WorldwideFreedom/
upload/hl_964.pdf (May 24, 2007).
    \4\ Kofi Annan, ``Secretary General's Address to the Commission on 
Human Rights,'' Office of the Spokesman for the U.N. Secretary General, 
April 7, 2005, at www.un.org/apps/sg/sgstats.asp?nid=1388 (May 24, 
2007. See also Mark P. Lagon, Deputy Assistant Secretary for 
International Organization Affairs, U.S. Department of State, ``The UN 
Commission on Human Rights: Protector or Accomplice?'' testimony before 
the Subcommittee on Africa, Global Human Rights and International 
Operations, Committee on International Relations, U.S. House of 
Representative, April 19, 2005, at www.state.gov/p/io/rls/rm/44983.htm 
(May 24, 2007).
---------------------------------------------------------------------------
    After lengthy deliberations and negotiations, the U.N. General 
Assembly voted to replace the Commission with a new Human Rights 
Council in March 2006.\5\ Regrettably, during the negotiations, the 
General Assembly rejected many basic reforms and standards that had 
been proposed to ensure that the Council would not repeat the mistakes 
of the Commission.\6\ For instance, the United States wanted a much 
smaller body than the 53-member Commission to enable it to act more 
easily; a high threshold for election to the Council (a two-thirds vote 
of the General Assembly); and a prohibition on electing nations to the 
Council that are under U.N. Security Council sanction for human rights 
abuses.
---------------------------------------------------------------------------
    \5\ Press release, ``Explanation of Vote by Ambassador John R. 
Bolton, U.S. Permanent Representative to the United Nations, on the 
Human Rights Council Draft Resolution, in the General Assembly,'' U.S. 
Mission to the United Nations, March 15, 2006, at www.un.int/usa/
06_051.htm (May 24, 2007).
    \6\ See Schaefer, ``The United Nations Human Rights Council.''
---------------------------------------------------------------------------
    Negotiators produced a 47-member Council that is only marginally 
smaller than the Commission. The HRC has no hard criteria for 
membership other than quotas for each of the regional groups in the 
United Nations and a requirement that Council members be elected by a 
simple majority of the General Assembly (currently 97 of 192 votes). No 
state, no matter how poor its human rights record, is barred from 
membership. Even states under Security Council sanction for human 
rights abuses may become members.
    The resolution, instead, instructs U.N. Member States that ``when 
electing members of the Council, [they] shall take into account the 
contribution of candidates to the promotion and protection of human 
rights.'' \7\ Candidates are also asked to submit ``voluntary pledges 
and commitments'' on their qualifications for the Council based on 
their past and future adherence to and observance of human rights 
standards. The toothlessness of this instruction quickly became evident 
when notorious human rights abusers Algeria, Cuba, China, Iran, 
Pakistan, Saudi Arabia, and Russia ran for election, asserting their 
strong commitment to human rights and pledging their commitment to such 
standards in the future.\8\
---------------------------------------------------------------------------
    \7\ U.N. General Assembly, ``Human Rights Council,'' Resolution A/
RES/60/251, 60th Sess., April 3, 2006, at www.ohchr.org/english/bodies/
hrCouncil/docs/A.RES.60.251_En.pdf (May 24, 2007).
    \8\ For pledges and candidates for election to the Human Rights 
Council in 2006, see U.N. General Assembly, ``Human Rights Council,'' 
at www.un.org/ga/60/elect/hrc (May 24, 2007). for pledges and 
candidates for election to the Human Rights Council in 2007, see U.N. 
General Assembly, ``Human Rights Council Election,'' May 17, 2007, at 
www.un.org/ga/61/elect/hrc (May 24, 2007). See also Brett D. Schaefer, 
``Human Rights Relativism Redux: UN Human Rights Council Mirrors 
Discredited Human Rights Commission,'' Heritage Foundation WebMemo No. 
1069, May 10, 2006, at www.heritage.org/Research/
InternationalOrganizations/wm1069.cfm.
---------------------------------------------------------------------------
    Because of these weaknesses, the United States voted against the 
resolution creating the HRC and announced that it would not run for a 
seat on the Council, but would consider running in the future if the 
Council proved effective.\9\ ``Absent stronger mechanisms for 
maintaining credible membership, the United States could not join 
consensus on this resolution,'' explained then-U.S. Ambassador to the 
United Nations, John Bolton. ``We did not have sufficient confidence in 
this text to be able to say that the HRC would be better than its 
predecessor.'' \10\ Ambassador Bolton's statement has proven prophetic.
---------------------------------------------------------------------------
    \9\ Press statement, ``The United States Will Not Seek Election to 
the UN Human Rights Council,'' U.S. Department of State, April 6, 2006, 
at www.state.gov/r/pa/prs/ps/2006/64182.htm (May 24, 2007).
    \10\ U.N. General Assembly, ``General Assembly Establishes New 
Human Rights Council.''
---------------------------------------------------------------------------
    Less than half of the old Commission's members in 2005 were 
considered ``free'' by Freedom House. China, Cuba, Egypt, Pakistan, 
Sudan, and Zimbabwe--some of the world's worst human rights abusers--
routinely used their positions on the Council to block scrutiny of 
their own practices and to launch spurious attacks on other countries 
for political reasons (e.g., Israel) or for speaking openly about their 
human rights violations (e.g., the United States).
    The May 2006 election showed that simply creating a new Council had 
not convinced the General Assembly to spurn the candidacies of human 
rights abusers. Overall, the Council's membership in 2006 was only 
marginally better than the Commission's membership in 2005. The first 
Council election in 2006 produced a Council in which 25 out of 47 
members (53 percent) were ranked ``free'' by Freedom House. Some of the 
more disreputable human rights abusers--Burma, North Korea, Sudan, and 
Zimbabwe--did not run for seats. Iran and Venezuela ran for seats but 
were unsuccessful, although Venezuela received enough votes (101) to 
win a seat if other states had not won more support.\11\
---------------------------------------------------------------------------
    \11\ See Human Rights Watch, ``Human Rights Council: Latin America 
& Caribbean States: 8 Seats, 11 Declared Candidates,'' at www.hrw.org/
un/elections/lac/lac.htm (May 24, 2007).
---------------------------------------------------------------------------
    Despite these minor successes, a number of states with dismal human 
rights records won seats, including Algeria, Azerbaijan, Cameroon, 
Cuba, China, Pakistan, Saudi Arabia, Tunisia, and Russia.\12\
---------------------------------------------------------------------------
    \12\ Schaefer, ``Human Rights Relativism Redux'' and ``The United 
Nations Human Rights Council.''
---------------------------------------------------------------------------
    All Council members pledge their commitment to human rights 
standards when they run for election. As a Council member, a country is 
supposed to ``uphold the highest standards in the promotion and 
protection of human rights.'' \13\ This requirement did not translate 
into better promotion and protection of human rights at the HRC. On the 
contrary, the Council's actions reveal a profound lack of commitment to 
human rights. Council decisions reveal that the bulk of its membership 
has declined to scrutinize major violators of human rights and has 
instead focused disproportionately on censuring Israel.
---------------------------------------------------------------------------
    \13\ U.N. General Assembly, ``Human Rights Council.''
---------------------------------------------------------------------------
    In its first year, the Council failed to address ongoing repression 
in Belarus, China, Cuba, North Korea, and Zimbabwe and many other dire 
human rights situations around the world. Nor did the HRC censure the 
Government of Sudan for its role in the genocide in Darfur. Instead, it 
held one special session on Darfur and adopted one mild resolution and 
four mild decisions expressing ``concern'' regarding the human rights 
and humanitarian situation in Darfur, dispatching a ``High-Level 
Mission to assess the human rights situation in Darfur and the needs of 
the Sudan in this regard.'' \14\ However, the Council did find the time 
to hold 3 special sessions on Israel and pass 10 resolutions condemning 
Israel and another 4 decisions on Israel's human rights record.\15\ 
More than 70 percent of the Council's country-specific resolutions and 
decisions have focused on Israel.
---------------------------------------------------------------------------
    \14\ U.N. Human Rights Council, ``Decision 1/115: Darfur,'' 
November 28, 2006, at http://ap.ohchr.org/documents/E/HRC/decisions/A-
HRC-DEC-2-115.doc (May 24, 2007), and ``Decision S-4/101: Situation of 
Human Rights in Darfur,'' December 13, 2006, at www.ohchr.org/english/
bodies/hrCouncil/specialsession/4/docs/Dec_S_4_101_en.doc (May 24, 
2007).
    \15\ Eye on the UN, ``Statistics on the UN Human Rights Council's 
First Year of Operation June 2006-June 2007,''EyeontheUN.org, at 
www.eyeontheun.org/view.asp?l=11&p=330 (July 25, 2007); UN Watch, 
``Dawn of a New Era?''; and press release, ``Irregularities, Old Habits 
Plague UN Human Rights Council Transition: Canada Ignored, Israel 
Censured, Darfur Atrocities Dismissed,'' UN Watch, June 20, 2007, at 
www.unwatch.org/site/apps/nl/content2.asp?c=
bdKKISNqEmG&b=1316871&ct=3983453 (July 25, 2007).
---------------------------------------------------------------------------
    Even the discredited Commission had a better record. Over a 40-year 
period, only 30 percent of its resolutions condemning specific states 
for human rights violations focused on Israel.\16\
---------------------------------------------------------------------------
    \16\ This figure increased over time. In 2005, the commission 
adopted four resolutions against Israel and four resolutions against 
all other countries. UN Watch, ``Dawn of a New Era?''
---------------------------------------------------------------------------
    Some of this disappointing performance can be blamed on the 
negligible difference in quality between the Council's membership and 
the Commission's membership. The situation is aggravated by the shift 
in proportional representation of regions. The Commission had greater 
representation of Western democracies, while Africa and Asia control a 
majority of the Council. This has dramatically increased the influence 
of groups like the Non-Aligned Movement (NAM) and the Organization of 
the Islamic Conference (OIC). Members of the NAM also held a majority 
of seats in the Council's first year. The OIC held 17 seats, more than 
the one-third (16 seats) required to call a special session. 
Unsurprisingly, both groups have repeatedly used their influence to 
attack Israel and to protect abusive states from Council scrutiny.
    However, the most frustrating aspect of the Council's first year 
has been the reluctance of free, democratic states, including South 
Africa and India, to support human rights efforts on the Council. A 
U.N. Watch analysis of significant actions taken by the Council during 
its first year concluded that only 13 of the Council's 47 members were 
net positive contributors to its human rights agenda. Four free 
democracies--Indonesia, Mali, Senegal, and South Africa--were among the 
countries with the worst record.\17\
---------------------------------------------------------------------------
    \17\ UN Watch scored 20 ``key actions'' of the HRC in its first 
year. The positions taken by countries on these key actions were 
assigned a value: 1 point for taking a positive position for human 
rights in the HRC, 0 points for taking a neutral position, and -1 point 
for taking a negative position. Ibid., pp. 5-8 and 26-27.
---------------------------------------------------------------------------
                          PROSPECTS FOR REFORM

    The topic of today's hearing is the prospects for reform of the 
Human Rights Council. Based on the past year's record in the Council, 
the 2007 membership, and the record of the General Assembly, the 
prospects for reform or improvement are dim.
    The prospects for improved performance by the Council depend 
entirely on the members of the HRC who set and adopt the agenda, rules, 
procedures, and resolutions and on the General Assembly that elects the 
Council membership and could reform the body in the future.
    The resolution creating the Council requires the General Assembly 
to review the status of the Council within 5 years, or by 2011. 
However, many Member States have clearly indicated that they are 
pleased to have a dysfunctional Council and support for strengthening 
the body in the General Assembly cannot be counted on.
    An illustration of this is the May 2007 election of members to the 
Council. The 2007 election marked a regression from 2006.\18\ The 
number of ``free'' countries on the Council according to Freedom House 
rankings declined, and the number of ``not free'' countries increased.
---------------------------------------------------------------------------
    \18\ The resolution calls for one-third of the HRC to be elected 
annually. The 47 members elected in 2006 were randomly assigned terms 
of 1, 2, or 3 years to set the stage for this process. Each member 
elected in 2007 will hold its term for the full 3 years. For a list of 
members and their terms, see U.N. Human Rights Council, ``Membership of 
the Human Rights Council,'' at www.ohchr.org/english/bodies/hrCouncil/
membership.htm (May 24, 2007).
---------------------------------------------------------------------------
    The only significant victory was blocking Belarus from winning a 
seat. Yet until about a week before the election, Belarus and Slovenia 
were the only two candidates for the two open Eastern European seats. 
Only enormous pressure from human rights groups and the United States 
persuaded Bosnia and Herzegovina to run, narrowly denying Belarus a 
seat on the Council.\19\ However, Angola, Egypt, Qatar, and Bolivia--
states with dismal human rights records--were elected easily.\20\
---------------------------------------------------------------------------
    \19\ According to one news report, Bosnia and Herzegovina decided 
to run only after the U.S. strongly implied to other European countries 
that the U.S. would run for a Council seat next year if Belarus did not 
win a seat. If true, this is a perverse and shortsighted strategy that 
would undermine America's principled position not to run for a seat 
until the Council proves its merit in return for only a one-time defeat 
of Belarus. Maggie Farley, ``U.S. Appears Willing to Joint U.N. Human 
Rights Panel,'' Los Angeles Times, May 18, 2007, at www.latimes.com/
news/printedition/asection/la-fg-rights18may18,1,2886241.story (May 24, 
2007).
    \20\ See Anne Bayefsky, ``The Oppressors' Club,'' National Review, 
May 18, 2007, at http://article.nationalreview.com/
?q=NDM2NTQ2ODZmNDU3MTA2ZTBiNDFiNGExZWRjMWM2YjQ (May 24, 2007).
---------------------------------------------------------------------------
    An additional concern is that, unlike the robust competition for 
seats in the 2006 election, only two regions--Eastern European States 
and the Western Europe and Other States--offered more candidates than 
the number of available seats in the 2007 election.\21\ The decision of 
the African, Asian, and Latin American and Caribbean regions to offer 
only enough candidates to fill their open seats marked a disturbing 
return to the practices of the Commission and defeated the purpose of 
competitive elections in the General Assembly, which were supposed to 
offer a larger choice of possible candidates in order to select the 
best possible members for the Council.
---------------------------------------------------------------------------
    \21\ For a list of the candidates for the Human Rights Council in 
2007, see U.N. General Assembly, ``Human Rights Council Election.''
---------------------------------------------------------------------------
    Nor do the Council members seem inclined to strengthen the body. On 
the contrary, the Council made a series of decisions in its 5th session 
that significantly weakened its ability to objectively advance and 
advocate human rights or fall far short of the expectations of the 
United States and most human rights groups.\22\
---------------------------------------------------------------------------
    \22\ See Sean McCormack, ``Conclusion of the UN Human Rights 
Council's Fifth Session and First Year,'' U.S. Department of State, 
June 19, 2007, at www.state.gov/r/pa/prs/ps/2007/jun/86802.htm (July 
25, 2007); Anne Bayefsky, ``The First Year of the Human Rights Council: 
A Human Rights Catastrophe,'' Eye on the UN, at www.eyeontheun.org/
view.asp?l=11&p=334 (July 25, 2007); Human Rights Watch, ``UN: Rights 
Council Ends First Year With Much To
Do,'' June 19, 2007, at http://hrw.org/english/docs/2007/06/18/
global16208.htm (July
25, 2007; and press release, ``Castro and Lukashenko to Celebrate at UN 
Human Rights Council,'' UN Watch, June 18, 2007, at www.unwatch.org/
site/apps/nl/content2.asp?c=
bdKKISNqEmG&b=1316871&ct=3970325 (July 25, 2007).

  <bullet> Universal Periodic Review. The Council, as required in the 
        General Assembly resolution creating the body, adopted a 
        ``universal periodic review'' of the human rights situation in 
        all U.N. Member States. This step is welcome, but the proposed 
        procedures for the review are very weak and virtually assure a 
        milquetoast outcome. The review for every country, whether it 
        is Sweden or Sudan, is limited to 3 hours. The review will be a 
        country-led process in which the ``country under review shall 
        be fully involved in the outcome'' and requires the review to 
        ``take into account the level of development and specificities 
        of countries.'' \23\ Input from nongovernmental organizations 
        will be minimal. Moreover, reviews will occur every 4 years 
        regardless of circumstances in the country and only after 
        exhausting ``all efforts to encourage a state to cooperate with 
        the UPR mechanism'' would the Council ``address, as 
        appropriate, cases of persistent noncooperation with the 
        mechanism.'' \24\ In other words, a genocide or massive 
        political crackdown could occur in Sudan, China, Venezuela, or 
        some other country and the Council could wait 4 years or more 
        before examining whether a country has addressed the human 
        rights concerns raised during the review.
---------------------------------------------------------------------------
    \23\ U.N. Human Rights Council, ``Report to the General Assembly on 
the Fifth Session of the Human Rights Council,'' U.N. General Assembly 
Document A/HRC/5/L.11, June 18, 2007, p. 5, at www.ohchr.org/english/
bodies/hrCouncil/docs/5session/a_hrc_5_l11.doc (July 25, 2007).
    \24\ Ibid, p. 11.
---------------------------------------------------------------------------
  <bullet> Independent Experts. The Council decided to maintain the 
        system of independent experts charged with thematic human 
        rights issues, such as freedom of opinion and expression, 
        torture, the right to food, but weakened their ability to 
        investigate and report their findings. Under the new 
        procedures, a committee appointed by the HRC will appoint these 
        experts from a roster of ``qualified'' candidates. This process 
        increases opportunities for the Council to directly pressure 
        and influence the experts.
  <bullet> New Code of Conduct. Moreover, the experts will be subject 
        to a new Code of Conduct designed to restrict the independence 
        of the human rights experts and the sources for their reports. 
        For instance, experts are required to ``show restraint, 
        moderation, and discretion'' when implementing their mandate, 
        avoid using ``unfounded or politically motivated'' 
        communications or ``abusive'' language, and not rely on 
        ``reports disseminated by mass media'' or nongovernmental 
        organizations or persons unless they are the ``victim of 
        violations . . . and claim[] to have direct or reliable 
        knowledge of those violations substantiated by clear 
        information.'' \25\ These restrictions offer ample 
        opportunities for countries to dispute, block, and otherwise 
        criticize reports by experts.
---------------------------------------------------------------------------
    \25\ Ibid, pp. 49-55.
---------------------------------------------------------------------------
  <bullet> Country-Specific Experts. A majority of the Council sought 
        to eliminate all experts focused on investigating human rights 
        abuses in specific countries. The effort failed when European 
        countries threatened to walkout. However, the Council did 
        eliminate the experts focused on Belarus and Cuba, despite 
        extensive evidence of ongoing violations. The Council chose to 
        maintain experts for Burma, Burundi, Cambodia, the Democratic 
        Republic of the Congo, Haiti, Liberia, North Korea, Somalia, 
        and Sudan, but many countries plainly plan to eliminate them in 
        the near future through a ``review'' process. As with the 
        thematic experts, the country experts will also have to abide 
        by the Code of Conduct and will be selected by the committee 
        appointed by the Council.
  <bullet> Israel. In a disappointing repetition of one of the 
        Commission's most egregious discriminatory practices, the 
        Council voted to keep Israel as the sole country assigned a 
        permanent expert charged with investigating ``the situation of 
        human rights in the Palestinian territories occupied since 
        1967.'' \26\ While it sounds as if this mandate might cover 
        possible human rights abuses by Palestinians and Israelis in 
        the territory, this is not the case. John Dugard, the special 
        rapporteur on the situation of human rights in the occupied 
        Palestinian territory, said ``it was understood that his 
        mandate was limited to investigate human rights violations by 
        Israelis and not by Palestinians.'' \27\ Moreover, the mandate 
        is one-sided and presumes Israel's guilt through language on 
        the duration of this mandate, which extends ``until the end of 
        the occupation.'' \28\ Unsatisfied with the efforts to condemn 
        Israel in earlier sessions or with the successful effort to 
        permanently install a blatantly discriminatory mandate focused 
        solely on Israel, the Council passed an additional two 
        resolutions condemning Israel in June.\29\
---------------------------------------------------------------------------
    \26\ Human Rights Council, ``Report to the General Assembly on the 
Fifth Session of the Human Rights Council,'' p. 41.
    \27\ U.N. General Assembly, Department of Public Information, 
``Third Committee Approves Draft Resolutions on Human Trafficking, 
Literacy, Ageing, Crime Prevention, Kidnapping; Continues Consideration 
of Human Rights Issues,'' General Assembly Document GA/SHC/3858, 
October 19, 2006, at http://domino.un.org/UNISPAL.NSF/
eed216406b50bf6485256ce10072f637/b5567a93f841d5b28525720d00737d57 (July 
25, 2007.)
    \28\ Human Rights Council, ``Report to the General Assembly on the 
Fifth Session of the Human Rights Council,'' p. 38.
    \29\ Press release, ``Human Rights Council Adopts Three Resolutions 
on Lebanon, Occupied Palestinian Territory and Darfur,'' U.N. Human 
Rights Council, June 20, 2007, at www.unhchr.ch/huricane/huricane.nsf/
view01/04C68E89E3B992D7C1257300004D2901 (July 25, 2007).

    As summarized by the U.S. Department of State, these institution-
building procedures are ``seriously flawed'' and will make the many 
problems of the Council ``even worse, by terminating the mandates of 
the U.N. Rapporteurs on the Governments of Cuba and Belarus, two of the 
world's most active perpetrators of serious human rights violations, 
and singling out Israel as the only country subject to a permanent 
agenda item.'' \30\
---------------------------------------------------------------------------
    \30\ Sean McCormack, ``Conclusion of the UN Human Rights Council's 
Fifth Session and First Year.''
---------------------------------------------------------------------------
    Some have suggested that the performance of the Council would be 
improved if the United States had been a member of the Council or could 
be improved if the United States sought a seat on the Council in the 
future. This is very unlikely. Winning a seat on the Council would not 
necessarily give the United States greater voice or influence. Any U.N. 
Member State can comment on and speak to issues before the Council, and 
the United States has frequently expressed its support of or opposition 
to various resolutions and decisions.
    Because membership is based on geographic representation, even if 
the United States won a seat on the Council, it would simply displace 
one of the seven countries representing the Western Europe and Other 
States region, which already vote largely as the United States would 
vote. In numerous votes over the past year, the Council has adopted 
resolutions over the objection of 11 or 12 Western nations.\31\ U.S. 
membership on the Council would not change this situation. The gain 
from a U.S. vote on the Council would be marginal at best.
---------------------------------------------------------------------------
    \31\ For instance, the July resolution on Israel and Palestine 
passed by a vote of 29 to 11 with five abstentions, the August decision 
on the Israeli invasion of southern Lebanon passed by a vote of 27 to 
11 with 8 abstentions, and the November decision on Darfur passed by a 
vote of 25 to 11 with 10 abstentions. Canada, the Czech Republic, 
Finland, France, Germany, the Netherlands, Poland, Romania, Ukraine, 
and the United Kingdom voted against these resolutions. Switzerland and 
Japan voted for at least one. Press release, ``Human Rights Council 
Decides to Dispatch Urgent Fact-Finding Mission to the Occupied 
Palestinian Territories,'' U.N. Human Rights Council, July 6, 2006, at 
www.unog.ch/unog/website/news_media.nsf/(httpNewsByYear_en)/
6382E27860145DA7C12571A3004D1F19 (May 24, 2007); press release, 
``Second Special Session of Human Rights Council Decides to Establish 
High-Level Inquiry Commission for Lebanon,'' U.N. Human Rights Council, 
August 11, 2006, at www.unog.ch/unog/website/news_media.nsf/
(httpNewsByYear_en)/F16C6E9AE98880A0C12571C700379F8C (May 24, 2007); 
and press release, ``Human Rights Council Notes with Concern Serious 
Human Rights and Humanitarian Situation in Darfur,'' November 28, 2006, 
at www.unog.ch/unog/website/news_media.nsf/(httpNewsByYear_en)/
62C6B3F928618CCEC12572340046C4BB (May 24, 2007).
---------------------------------------------------------------------------
    Indeed, the U.S. experience over the past year would likely mirror 
that of Canada. Over the past year, Canada has assumed the traditional 
U.S. role of raising controversial resolutions and demanding votes. 
Canada's admirable actions have not been successful. On the contrary, 
they have resulted in retaliation and--in one remarkable instance--
blatant and willful distortion of the record when the HRC declared that 
the new procedures were adopted by consensus despite Canada's 
insistence that it never gave its consent or even received a copy of 
the resolution text. Bizarrely, the Council voted 46 to 1 that Canada 
had indeed agreed to the consensus.\32\ As noted by the United States, 
the procedural maneuvers to obtain consensus on the resolution violated 
both the spirit and letter of the rules of the Council: ``We are 
concerned about the procedural irregularities employed last night 
denying Council members the opportunity to vote on this agenda. The 
Human Rights Council was intended to be the world's leading human 
rights protection mechanism. Its proceedings should be a model of 
fairness and transparency. Instead, in the interest of political 
expediency, procedural irregularities denied members the right to an 
up-or-down vote on principled human rights concerns--a right guaranteed 
by the rules of the institution.\33\
---------------------------------------------------------------------------
    \32\ UN Watch, ``Consensus Declared--Whether Canada Consented or 
Not,'' View From Geneva, June 20, 2007, at www.unwatch.org/site/
c.bdKKISNqEmG/b.1317481/k.96E7/View_From_
Geneva/apps/nl/newsletter2.asp (July 25, 2007).
    \33\ Sean McCormack, ``Conclusion of the UN Human Rights Council's 
Fifth Session and First Year.''
---------------------------------------------------------------------------
    There is no reason to expect that the United States would be 
treated differently than Canada by the human rights abusers that have 
successfully used the Council to undermine human rights rather than 
protect them.

                               CONCLUSION

    Hopes that the Human Rights Council would rectify the poor record 
of the U.N. Commission on Human Rights in holding human rights abusers 
to account have proven illusory. The Council ultimately reflects the 
quality of its membership. The General Assembly simply did not 
incorporate the protections and standards for membership that would 
have lead to a more effective body. Predictably, human rights abusers 
are running the Council agenda in the same manner they did with the 
Commission.
    The United States should not be satisfied with the status quo. 
Congress and the administration should continue their efforts to 
improve the HRC's membership, procedures, mechanisms, and institutions. 
However, we must also be realistic in recognizing that most members of 
the General Assembly and the Council do not want an effective Council 
and that America's best efforts will likely fall short.
    As a result, the United States should refuse to lend the Council 
the credibility of U.S. membership or the symbolic support of U.S. 
contributions until such time as the Council takes its responsibilities 
seriously by censuring major human rights abusers, exposing their 
reprehensible actions to public scrutiny, and eschewing its 
disproportionate focus on Israel.\34\
---------------------------------------------------------------------------
    \34\ The HRC is funded throught the U.N. regular budget, so the 
U.S. cannot directly withhold funding. Instead, it could withhold an 
amount equal to the U.S. portion of the Council's budget (the U.S. pays 
22 percent of the HRC budget estimated at $12.9 million to $14.1 
million per biennium, or about $1.5 million per year) from the U.N. 
regular budget. This withholding would have little direct effect on the 
Council's budget because the withholding would be spread across all 
U.N. activities funded through the regular budget, but it would clearly 
signal U.S. displeasure with the Council.

    Senator Bill Nelson. Did any of you disagree with any of 
the other panelists on any of the testimony?
    Yes ma'am, Ms. Hicks.
    Ms. Hicks. Senator Nelson, I would like to point out, Mr. 
Chairman, that the issue of the Universal Periodic Review has 
been talked about quite a bit here, and it could either be the 
worst thing to happen or the best thing to happen based on some 
of the views expressed.
    My colleague from the Heritage Foundation talked about the 
fact that the text virtually assures a Milquetoast outcome and 
that the input from NGOs in process will be minimal. Neither of 
those statements, in my view, is correct.
    First, a Milquetoast outcome is assured only if states like 
the United States and allies at the U.N. Human Rights Council 
do not engage actively in making this process work. The terms 
of reference for this process are sufficient for a real 
outcome. And as a human rights group, I have to tell you that 
we're very excited about the fact that there will be a chance 
for every country to be put under the spotlight in this way. 
The process gives NGOs equal access, basically, by allowing a 
10-page summary of their input to be made the same way that the 
HRC will have a 10-page summary from the Office of the High 
Commissioner for Human Rights of U.N. information. So it's a 
fair process.
    Thank you.
    Senator Bill Nelson. So you think the universal periodic 
review can be a deterrent on the abuses if the United States is 
an active participant?
    Ms. Hicks. Absolutely, Mr. Chairman.
    No country likes to have its human rights record review, 
and our experience has been that when human rights reviews of 
that sort happen, states take action. They often adopt 
legislation, they release prisoners, they move things on the 
ground for human rights. This may not, as I said earlier, be as 
satisfying as a condemnatory resolution, but it can be a 
process that can change the reality on the ground.
    Senator Bill Nelson. Mr. Melia.
    Mr. Melia. I would agree with Ms. Hicks, that there's 
potential for the universal review to be meaningful and for it 
to be, at least, one chance, one bite at the apple, for some of 
these countries that won't otherwise be subjected to scrutiny. 
I'm not sure that it's a good use of the limited time and 
resources of the Council to do it on every country in the 
world, however. I do not think the world needs an extensive 
review of Finland and Iceland and Costa Rica and some of these 
other countries. We really need to have the Council focus on 
the problem places in the world. And it is not a mystery which 
places those are.
    So, there's potential value to the Universal Review. I 
think it's--we're concerned it's going to divert resources that 
could be better spent otherwise. But most importantly, it 
depends on what kind of review it is and how we and others take 
advantage of this opening to do some of these reviews.
    Senator Bill Nelson. Does the observer status of the United 
States hinder its opportunity to work with NGOs?
    Mr. Schaefer. In my opinion, it does not. The United States 
has a very strong presence in Geneva. It works closely with the 
Council. It works closely with other Member States that have 
seats on the Council and regularly offers comment on 
resolutions, decisions, and matters before the Council. It 
engages frequently with NGOs. In fact, I was just at the 
session this past March and I witnessed the negotiations 
between the U.S. delegation and the various NGOs that were 
present that day. They were extensive and continuous throughout 
the day. In fact, they continued through virtually the entire 
discussion. The United States worked with them very closely and 
it continues to do so.
    Ms. Hicks. Could I comment on that as well?
    Thank you, Mr. Chairman. I think I'm probably the only 
person in the room who has actually attended the last four 
sessions of the Human Rights Council in Geneva, so I have a 
good sense of the U.S. role there. It certainly has been able 
to engage and has done so in a constructive fashion with NGOs 
and otherwise.
    But, anyone who has visited there as well, would repeat the 
refrain from our allies, that they need the United States at 
the table. Observer status is not enough. We simply do not have 
the influence we would if we were a voting member of the 
Council. And our U.S. leadership can play an important role. 
That is something you hear routinely from allies in Latin 
America and in Europe.
    When you look at the decision of the United States, for 
example, not to run for a seat on the Council, this was a 
question that was asked routinely in Geneva. The U.S. decision 
was a grave disappointment and, I think, set back the efforts 
of the U.S. delegation to do its job. When that decision came 
through, people in Geneva questioned, ``Well, if you're not 
willing to even run for a seat, what do your opinions matter in 
the context of this body?'' raising an understandable concern 
in my view.
    Senator Bill Nelson. Did the United States think that it 
wasn't going to get elected? Is that why it didn't run?
    Ms. Hicks. That's not the stated reason for the U.S. 
decision not to run. They've said that they haven't run because 
of the lack of credibility of the body. But in fact, of course, 
by being at the table, they have a greater propensity to affect 
the credibility and effectiveness of the Council.
    Senator Bill Nelson. Do either of the two of you disagree 
with that?
    Mr. Schaefer. I have no idea whether the United States 
would have won a seat or not, if it sought one. I do know that 
it would have been a difficult process to get the number of 
votes necessary to win a seat. I think that the United States 
wisely chose to focus its efforts on, in the past case of 
electing Bosnia and Herzegovina over Belarus, trying to get 
better membership on the Council rather than getting itself 
elected.
    If you take a look at the Western European and Others 
group, you have European countries that largely share the U.S. 
values and vote when pressed on those issues, in many cases, 
the way the United States would. Instead of trying to replace 
one of those countries, which would have had a marginal affect 
on the outcome of votes, it instead focused on preventing 
countries like Belarus from being elected.
    I think this has a much stronger effect overall on the 
membership of the Council, even though it's still an uphill 
battle.
    The number of members who regularly supported strong 
prohuman rights resolutions over the past year on the Council 
was, unfortunately, small. It's about 13 countries. Thirteen 
countries out of 47 countries is about 28 percent of the 
Council. Senator, if you can imagine yourself as part of a 28-
Member minority in the Senate. Ask yourself, how effective 
could you be? How strongly could you advocate your positions, 
and how successful would you be in advancing those positions? 
And that's exactly the situation that the United States and 
other like-minded countries face in the Council. Considering 
the regional allocation of the seats on the Council and the 
unwillingness of developing world democracies like India and 
South Africa to support human rights and stand by those 
principals, instead yielding to pressures from the regional 
voting blocks, the situation's not going to change in the 
future, regardless of whether the United States is on the 
Council or not.
    Senator Bill Nelson. Mr. Melia.
    Mr. Melia. The challenge the United States faces is 
precisely that of being in the minority position. I guess it 
depends on what your disposition would be to how to address 
being in the minority. Would you walk away if you're in the 20-
percent minority in the legislative body? Would you not show up 
or would you use your seat at the table to make statements, 
define your position, create a position that others could 
gravitate toward in the future? That's what we need to be doing 
at the U.N. Human Right Council.
    There's been discussion about the symbolism attached to 
potentially withholding some dues to the United Nations. Well, 
there's some symbolism attached to being present at the table. 
You have to play to win. If you want to build a political 
movement, if you want to build a larger coalition, you have to 
be engaged in it, you have to be visible, articulating the 
standards to which you want others to repair. And that's what 
the United States has not done adequately.
    I think there has been some vigorous diplomacy by this 
administration. Ms. Silverberg and her colleagues, Mark Lagon 
and Barry Lowenkron and Erica Barks-Ruggles, they have done 
what they were talking about. They have gone to capitals. But 
they have to go to more capitals and they have to really make 
it part of our bilateral relationship with that second tier of 
democracies; not just with the Western Europeans who are always 
going to vote right. We need the Western Europeans to use their 
influence with other democracies. We need them to use their 
influence in Latin America and Africa. We haven't done that 
yet; we haven't really stepped up our diplomacy to really try 
to build a coalition that is a minority's only chance to build 
a majority.
    Mr. Schaefer. Mr. Chairman, look back at the United Nations 
Commission on Human Rights. The United States was a paying 
member of the Commission for decades. The United States worked 
hard in the Commission to make it work. The United States 
worked hard to get various resolutions and country-specific 
mandates passed in the Commission. Yet, the Commission was 
condemned by Secretary General Kofi Annan as a discredited 
institution that cast a shadow on the United Nations system as 
whole.
    Simply being at the table and being part of the process 
isn't enough. It's not enough to overcome the entrenched 
resistance by a number of Member States that simply seek to use 
that institution to block scrutiny of themselves and to use it 
as a platform for attacking Israel and other countries. That is 
the situation that we're dealing with and simply having the 
United States at the table is not going to change that.
    I do agree that the United States needs to continue to 
press to try and make the institution better, but we need to 
deal in reality and the reality is that the numbers are stacked 
against the United States and like-minded states in the 
Council.
    Senator Bill Nelson. Well Mr. Schaefer, do you agree that 
the present course where the Council is condemning Israel, but 
is doing nothing about atrocities in Lebanon or, and the 
atrocities in the Sudan. Do you think that that's out of 
kilter?
    Mr. Schaefer. Absolutely.
    Senator Bill Nelson. All right. Well, then does the United 
States get engaged? In what way, Mr. Schaefer, since you don't 
think that it makes any difference for the United States to be 
a member of the Council? What do you think about the observer 
status?
    Mr. Schaefer. I think that the United States should 
continue to press for good resolutions. The United States 
should continue to support good Member States for seats on the 
Council and should try and make the Council better. But that 
doesn't mean that it should seek to be elected to what has 
turned out to be an illegitimate and utterly ineffective 
organization for preserving, protecting, and advancing human 
rights. The U.S. membership on the Council is something that 
many states desperately want and it's one of the cards that we 
can play by saying, ``If you live up to the standards for the 
Council that are in the resolution creating this institution, 
at that point the United States would join this institution. 
And it will not join it until it meets those standards.'' 
You're setting a threshold for behavior and you're setting a 
standard--a principle. And at that point, if the Council lives 
up to that standard, then it should seek a seat.
    Senator Bill Nelson. Ms. Hicks.
    Ms. Hicks. Mr. Chairman, I'm surprised by the skepticism by 
my colleague from the Heritage Foundation about the numbers 
within the Human Rights Council. If we use the same numbers 
that my colleagues have used and look to the Freedom House 
analysis, 55 percent of the Council are countries that are 
considered free. Seventy-six percent are members of the 
Community of Democracies. Now, of course those states don't 
always vote the right way at the Council, but to say that we're 
in a minority and that we can't get anything done at the 
Council simply belies the numbers. There is a working majority. 
We saw it take action, actually, on Sudan and Darfur, and it 
can be used--as it was with Belarus at the General Assembly--if 
the United States and other countries were to make it so.
    And turning to the HRC elections, which both of my 
colleagues have referred to, the United States worked and made 
sure that Belarus didn't get elected. But at the same time, the 
Latin America slate had room for two countries, and those two 
slots were taken up by Nicaragua and Bolivia. Surely the United 
States has enough influence in that region of the world to work 
with its allies, to put forward a better slate of candidates. 
The same can be said for Africa where, as has already been 
noted, Egypt and Angola were among the countries elected. We 
can work with human rights supporters in Africa, we can improve 
the membership, and we can get things accomplished even with 
the membership as it currently exists.
    Senator Bill Nelson. Well, I want to thank you all for your 
participation. We are going to continue to shine the light on 
this matter because something isn't right. And we've talked a 
lot about process and membership and the degree of 
participation and all of that, but underlying all of this is 
that something's not running right. And we've got to get it 
right. For a country that values the rights of humans being 
upheld, we can do no less.
    I'm very grateful to you for your participation today. I 
apologize for the interruption, but that is an occupational 
hazard around here. When we vote, we vote, and you have to go 
vote.
    So thank you and the meeting is adjourned.
    [Whereupon, at 4:30 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


  Prepared Statement of Hon. Norm Coleman, U.S. Senator From Minnesota

    Last year, a call for reform led the United Nations to replace the 
discredited Human Rights Commission, which had included the likes of 
Libya and Sudan as members, with a new Human Rights Council. The Human 
Rights Council celebrated its 1-year anniversary last week, but 
unfortunately this anniversary was nothing to celebrate. Despite 
concerns about the structure of the new Council when it began 
operating, no one anticipated that within 1 year it would be possible 
to gut the intended agenda of the Council and make a mockery of its 
stated purpose on the scale that the Human Rights Council has managed 
to do.
    In short, after five regular sessions and four special sessions, 
the Council has proved that it is nothing more than a platform to 
launch vitriolic attacks against one country--Israel. Despite the fact 
that the Human Rights Council is tasked with monitoring the human 
rights situation of all 192 members of the U.N., the only country that 
has been directly condemned through country-specific resolutions is 
Israel--which has been subject to nine resolutions, or 75 percent of 
all resolutions passed by the Council. In keeping with this selective 
focus, the Council has called three special sessions--which are 
intended only to address the most egregious and urgent human rights 
situations--on Israel. And for anyone that remains unconvinced about 
the blatant bias of the Council, when the decisions were adopted last 
week on the governing rules of the ``Program of Work'' were established 
with only one country-specific agenda item--the human rights violations 
of Israel in the Palestinian territories. The sad irony was that this 
decision was adopted while Hamas carried out murderous attacks against 
fellow Palestinians in Gaza.
    Only three noncondemnatory measures were adopted last year on the 
human rights situation in Sudan despite its perpetration of a genocide, 
and beyond that there was zero consideration of human rights in all of 
the remaining 190 U.N. Member States. In its annual report of the state 
of freedom in the world, Freedom House lists 19 of the ``worst of the 
worst'' human rights violators, none of which were given any 
consideration by the Council except for the feckless gestures passed on 
Sudan. In other words, the response of the Council to the state-
sponsored brutality in countries such as North Korea, Burma, Zimbabwe, 
and Belarus was a deafening silence.
    The truth is that members of the Council are too busy trying to 
protect themselves from criticism for their own human rights abuses and 
taking political shots at Israel. And they are succeeding--this past 
week when the governing rules were passed, the mandates of the special 
rapporteurs for human rights in Cuba and Belarus were eliminated. This 
should come as no surprise when there are not even minimal requirements 
for democracy or respect for human rights to run for membership on the 
Council. Predictably, less than half of the states on the 47-member 
Council qualify as free democracies and current members include 
countries like Cuba, Azerbaijan, Angola, and Saudi Arabia.
    I could go on and on about the outrages of the Human Rights 
Council, but I think the point has been made. At the very least, the 
performance of this Council has been a profound disappointment and I 
believe this body must make a statement to that effect. That is why I 
introduced a bill that prohibits U.S. funding to support the U.N. Human 
Rights Council, S. 1698. I would note that this bill does not cut off 
U.S. contributions to the U.N., but it makes it U.S. policy that the 
contributions we give to the U.N. are not to be used for supporting the 
Council. I would urge my colleagues to join me in expressing their 
disappointment with the Council by supporting this bill.
    Thank you very much.
                                 ______
                                 

   Responses of Assistant Secretary Kristen Silverberg to Questions 
                 Submitted by Senator Russell Feingold

    Question. It appears that the administration is continuing to 
refrain from engaging with the U.N. Human Rights Council (Council). We 
all know that it is not working well. What is the administration's 
strategy for improving the Council, or--failing that--working toward 
the development of an alternative structure to address the issues the 
Council has not addressed?

    Answer. The United States has been actively engaged in the 
Council's first year. We have not yet made any formal decisions on our 
participation with the Council. We are concerned about the Council's 
performance and are discussing ways to strengthen human rights through 
other fora. We continue to look for ways to positively affect 
developments in the Council and hope to see an improvement in its 
outcomes.
    We intend to continue our work on human rights matters in a variety 
of fora, including the U.N. General Assembly's Third Committee, the 
Security Council, when appropriate, other U.N. bodies, and in regional 
organizations. We will continue to provide support for technical 
assistance to promote human rights and democracy through the U.N. High 
Commissioner for Human Rights, the U.N. Democracy Fund, U.N. bodies, 
regional organizations, and by our direct support for civil society 
initiatives around the world.
    We are focusing our efforts to achieve our human rights goals in 
venues other than the Council and in which we can make a measurable 
difference on the ground and bring attention to the world's most 
pressing human rights concerns.

    Question. Seventy-seven percent of the new Council members belong 
to the Community of Democracies, but they tend not to vote as a group. 
Human rights advocates have said that the United States is the only 
government that could potentially bring together democratic governments 
on the Council to vote in favor of human rights promotion, possibly 
with the help of a U.S. Special Envoy to the Council. If you agree, 
what is the rationale for not being more engaged with the Council?

    Answer. In the Council's first year, despite intensive diplomatic 
efforts by the United States, the Human Rights Council fell back into 
some of the unfortunate patterns of its predecessor, the Human Rights 
Commission, including making decisions based on regional group or other 
bloc loyalties rather than on the merits of promoting and protecting 
rights.
    We have worked hard to try to encourage all members of the Council 
to be committed to protecting and promoting human rights--both 
domestically and internationally. Weaknesses in the resolution 
establishing the Council, including its failure to include any 
prohibition on membership in the Council by states that systematically 
abuse the rights of their people, is one of the reasons why we voted 
against the resolution. While 77 percent of the HRC members belong to 
the Community of Democracies, there remains a substantial portion that 
do not. We are actively supporting the Community of Democracies, and 
are working to strengthen its capacity to work as a caucus in 
multilateral fora.

    Question. In accordance with the General Assembly resolution 
establishing the Council, when electing members of the Council, 
countries are supposed to be reviewed under the Universal Periodic 
Review mechanism during their term. How many Council members have 
undergone a review of their own human rights record?

    Answer. The working guidelines for the Universal Periodic Review 
process are still under development and will probably be formalized 
within the next year. Thus far, no country has yet had its human rights 
record reviewed.

                                  <all>

</pre></body></html>
